<html>
<title> - RESEARCH AND DEVELOPMENT TO PROTECT AMERICA'S COMMUNITIES FROM DISASTER</title>
<body><pre>[Senate Hearing 109-293]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-293

RESEARCH AND DEVELOPMENT TO PROTECT AMERICA'S COMMUNITIES FROM DISASTER

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON DISASTER PREVENTION AND PREDICTION

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 8, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2006        
25-862 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001






       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMint, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas

             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Samuel E. Whitehorn, Democratic Deputy Staff Director and General Counsel
             Lila Harper Helms, Democratic Policy Director

                                 ------                                

           SUBCOMMITTEE ON DISASTER PREVENTION AND PREDICTION

                  JIM DeMint, South Carolina, Chairman
TED STEVENS, Alaska                  E. BENJAMIN NELSON, Nebraska, 
GORDON H. SMITH, Oregon                  Ranking
DAVID VITTER, Louisiana              MARIA CANTWELL, Washington
                                     BILL NELSON, Florida



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 8, 2005.....................................     1
Statement of Senator DeMint......................................     1
Statement of Senator McCain......................................    33
Statement of Senator E. Benjamin Nelson..........................    25

                               Witnesses

Bement, Jr., Dr. Arden L., Director, National Science Foundation.    19
    Prepared statement...........................................    21
Lautenbacher Jr., Vice Admiral Conrad C., U.S. Navy (Retired), 
  Under Secretary of Commerce for Oceans and Atmosphere; 
  Administrator, NOAA............................................    10
    Prepared statement...........................................    13
Semerjian, Dr. Hratch G., Acting Director, National Institute of 
  Standards and Technology, Technology Administration, Department 
  of Commerce....................................................     3
    Prepared statement...........................................     5

                                Appendix

Inouye, Daniel K., U.S. Senator from Hawaii, prepared statement..    37

 
RESEARCH AND DEVELOPMENT TO PROTECT AMERICA'S COMMUNITIES FROM DISASTER

                              ----------                              


                        WEDNESDAY, JUNE 8, 2005

                               U.S. Senate,
Subcommittee on Disaster Prevention and Prediction,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Jim DeMint, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Let's call the hearing to order. This is 
the first hearing of the Subcommittee on Disaster Prevention 
and Prediction. I think we've got a Ranking Member on the way 
here, but we'll go ahead and get started, as a courtesy to our 
witnesses who are here.
    This afternoon, we are going to be focusing the 
Subcommittee's attention on the role that the agencies under 
the jurisdiction of the Commerce Committee play in supporting 
the national homeland security mission. As we are all aware, 
September 11 profoundly changed America. Before the attacks on 
New York, Washington, and Pennsylvania, counterterrorism was 
largely the concern of other countries. Foreign nations were 
preoccupied with defeating the threat from groups like the Red 
Army Faction, the Shining Path, the Real IRA. And while the 
United States monitored these groups, the true fighting largely 
fell to other nations. That has all changed.
    As a part of the Nation's response to September 11, the 
President and the Congress created the Department of Homeland 
Security. This agency combined the intelligence, law 
enforcement, monitoring, first-response, and scientific 
capabilities of numerous federal agencies under one roof. I am 
confident that the consolidation of these agencies at the 
Department of Homeland Security will enhance the Nation's 
efforts to protect the homeland.
    While the Department represents a significant improvement 
over the multi-agency approach before 9/11, the Department is 
not the only federal entity contributing to the Nation's 
response to the threat posed by the international terrorist 
organizations. Many non-Defense, and non-Homeland-Security 
agencies play a crucial role in preventing and preparing for 
the threat posed by terrorists.
    This is particularly true in the scientific research 
community, where significant portions of homeland security 
research is performed outside the Department of Homeland 
Security. Specifically, the National Institute for Standards 
and Technology, the National Oceanic and Atmospheric 
Administration, and the National Science Foundation are 
appearing this afternoon to discuss how their work supports the 
homeland security science-and-technology efforts.
    All of these agencies had robust research programs in place 
long before September 11. They were able to transition and 
adjust their research regimes quickly so they could respond to 
the new threat while still supporting their fundamental core 
mission.
    NIST, which grew out of the Bureau of Standards, has long 
been responsible for helping establish the processes and 
standards that ensure that devices operate in a manner 
consistent with their purpose and design. For example, it's 
critically important that a tool, such as a radiation detector 
used by a firefighter, behaves as expected when deployed in the 
field.
    NOAA's mission has always been monitoring the ocean and 
atmosphere, and warning communities when there is a threat. 
NOAA's expertise in observing the weather in local communities, 
as well as their work in developing atmospheric models, 
provides an invaluable tool to the local first-responders in 
the event of a hazardous chemical release in one of our 
communities. For example, earlier this year the weather 
forecast office in Columbia, South Carolina, played a crucial 
role in providing weather inputs into the atmospheric models 
used during a chlorine release from a train wreck in 
Graniteville. While this was not a terrorist attack, the 
resources and cooperation between NOAA, the Department of 
Homeland Security, and the first-responders provide an example 
of how the agencies can work together in response to a 
disaster.
    Finally, NSF support of long-term revolutionary research 
will lay the foundation for the next generation of technologies 
to protect the homeland. By pushing the boundaries, scientists 
will often fail; but, when they make that dramatic and 
revolutionary breakthrough, they will enable a field of 
technology that will make the country safer and help us defeat 
terrorists.
    I'm looking forward to the comments of the witnesses this 
afternoon. When the work of America's scientists and engineers 
is combined with the courage and commitment of America's first-
responders, law enforcement personnel, and intelligence 
officers, American's homeland can surely be safer.
    With that, I'll ask--I guess the Ranking Member is not 
here. We'll allow his comments later. I'll introduce our 
panelists.
    Appearing before the Subcommittee this afternoon is Dr. 
Hratch G. Semerjian. Dr. Semerjian is Acting Director of the 
National Institute of Standards and Technology. Joining him is 
Vice Admiral Conrad Lautenbacher. Admiral Lautenbacher is Under 
Secretary of Commerce for Oceans and Atmosphere, and NOAA 
Administrator. Finally, Dr. Arden Bement--I ought to be able to 
pronounce that--Director of National Science Foundation, will 
be addressing the Subcommittee this morning.
    With that, we'll--Senator McCain, you said you did not want 
an opening statement.
    Senator McCain. Right.
    Senator DeMint. Thank you.
    OK, with that, we'll start with Dr. Semerjian. Please 
provide a short summary of your testimony. All of your 
testimonies will be submitted completely for the record.
    Thank you, sir.

         STATEMENT OF DR. HRATCH G. SEMERJIAN, ACTING 
   DIRECTOR, NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY, 
                  TECHNOLOGY ADMINISTRATION, 
                     DEPARTMENT OF COMMERCE

    Dr. Semerjian. Thank you, Chairman DeMint and Senator 
McCain.
    I'm Hratch Semerjian, Acting Director of NIST. Thank you 
for this opportunity to testify as part of this distinguished 
panel about NIST's homeland security efforts.
    Our history of supporting homeland- and national-security 
efforts began shortly after NIST--National Bureau of Standards 
then, as you pointed out--was founded, in 1901, and continues 
today with about 100 programs supported by approximately $60 
million in direct appropriations, augmented by significant 
funding support from other agencies, such as the Department of 
Homeland Security and Department of Justice. Our research is 
coordinated with the Department of Homeland Security through a 
Memorandum of Understanding that was signed in May of 2003.
    Shortly after September 11, 2001, NIST building and fire 
experts joined teams of scientists and engineers in assessment 
of how the Pentagon and the World Trade Center buildings were 
severely damaged or collapsed in the attacks. NIST experts 
presented to the U.S. Army Corps of Engineers a report of 
recommendations for rebuilding and retrofitting the Pentagon 
that would improve the Pentagon's resistance to similar 
attacks. NIST also provided assistance through the New York 
Medical Examiner in identifying victims of the World Trade 
Center by validating existing methods and devising new DNA 
analysis techniques to allow identifications that would not 
otherwise have been possible due to small and degraded samples.
    Later this month, we'll conclude our comprehensive 
technical investigation into how the World Trade Center Towers 
collapsed by issuing our findings and recommendations for 
improvements to building and fire codes, standards, and 
practices.
    After the October 2001 bioterrorist attacks, NIST worked 
with the federal agencies and the private sector to solve the 
challenging problem of ensuring that commercial radiation 
facilities could effectively sterilize U.S. mail contaminated 
with anthrax. When the Hart Senate Office building was 
contaminated with anthrax, NIST experts in ventilation systems 
and indoor air quality modeled the flow patterns in the 
building and helped the EPA with planning of the 
decontamination efforts.
    Subsequent to the attacks of 9/11, NIST has supported the 
Nation's homeland security effort in a number of different 
research areas. Today, I'd like to highlight just a few of 
these for the Subcommittee. I have provided more details, of 
course, in my written testimony. I should note that in all of 
these efforts we work very closely with our colleagues in other 
federal agencies.
    As part of its fulfillment of the Patriot Act, NIST 
conducted the fingerpoint vendor technology evaluation in 2003. 
This program was the first large-scale evaluation of 34 
different fingerprint matching systems. The evaluation, which 
was based on fingerprint data from a variety of Federal and 
State government sources, tested performance accuracy for 
various numbers and types of fingerprints, and provided 
valuable recommendations and input to the DHS's US-VISIT 
program.
    NIST has provided the common technical thread for the 
development of several standards important to DHS and the 
first-responder community. Our Office of Law Enforcement 
Standards is facilitating communication's interoperability 
efforts through the consensus standards process by employing a 
structured approach for confronting interoperability 
standardization issues. In response to Congress' call for 
immediate standards for communications interoperability, NIST, 
along with DHS and DOJ, has developed a partnership with 
Project 25 Steering Committee made up of public-safety leaders 
to either significantly accelerate the current P25 standards 
development or to develop interim communications standards in 
the absence of P25 standards.
    NIST, working with DHS, IEEE--that's the Institute for 
Electronics and Electronic Engineering--and the private sector 
organized the necessary expertise and drafting of four new 
national standards establishing baseline performance criteria 
and testing requirements for radiation detection devices. The 
specifications will ensure that ever-more-widely used detectors 
will reliably discern above background levels of radiation at 
ports of entry or other key locations.
    Additionally, NIST served as the executive agent for the 
Interagency Board for Equipment Standardization and 
Interoperability, which was created by the Justice and Defense 
Departments to advise federal, state, and local agencies on the 
selection and use of the best available equipment and 
procedures for first-responders.
    The IAB designated NIST to coordinate the development of a 
suite of eight standards for respiratory equipment, suits, 
gloves, and other gear that protect first-responders against 
chemical and biological hazards. These standards were announced 
in February 2004.
    NIST is also conducting research on a class of microsensors 
that has the potential to serve as a cost-effective early-
warning system for toxic gases, and may also be applicable to 
detection of vapors from explosive materials. NIST also 
contributed and participated in the process to develop a 
standard test method for handheld bioassays for detection of 
anthrax, and is currently managing a supporting project to 
develop sampling protocols for suspicious powders.
    Finally, NIST is managing, for the Department of Homeland 
Security, an effort to develop a standard for handheld devices 
for detection of chemical warfare agents that could be used by 
first-responders. This standard is currently being validated 
through ASTM.
    As the Committee can see by these examples, NIST has a very 
diverse portfolio of research activity supporting our Nation's 
homeland security efforts. NIST is working very closely with 
DHS Science and Technology Directorate to coordinate our 
research efforts and to ensure effective implementation. Our 
long history of research supporting homeland and national 
security has been critical for the development of an effective 
deployment of new technologies to protect the homeland.
    Once again, thank you for inviting me to testify, and I 
will be happy to answer any questions you may have.
    Thank you, Senator.
    [The prepared statement of Dr. Semerjian follows:]

    Prepared Statement of Dr. Hratch G. Semerjian, Acting Director, 
      National Institute of Standards and Technology, Technology 
                Administration, Department of Commerce

Introduction
    Chairman DeMint and Members of the Committee, I am Hratch 
Semerjian, Acting Director of the National Institute of Standards and 
Technology (NIST), part of the Technology Administration of the 
Department of Commerce. Thank you for this opportunity to testify about 
the contributions of NIST to homeland security. In accomplishing this 
and all parts of its mission, NIST works in many ways with companies, 
universities, and other government agencies to help protect our Nation 
against terrorism.
    Since World War II, our Nation's greatest resources for homeland 
and national security have been a strong economy and a technological 
edge based on innovation. NIST has the unique mission of providing the 
measurements and standards infrastructure that the private sector, 
universities, and government agencies need to develop new technologies, 
products and services, conduct research, and effectively carry out 
their responsibilities. NIST measurements and standards and our support 
of new technologies have strengthened our economy and enabled the 
development and effective deployment of new homeland security 
technologies.
    NIST's long and productive history of supporting homeland and 
national security efforts began shortly after its founding as the 
National Bureau of Standards. Partly in response to the Baltimore fire 
of 1904, Bureau researchers worked on the development of a national 
standard for hose couplings as well as a standard for an 
interchangeable device for nonstandard couplings. Other examples 
include crucial support for the development of nuclear weapons, 
aircraft instruments, and other technologies that helped the U.S. 
succeed in past conflicts. With its long experience as well as a 
diverse array of expertise, NIST was able to quickly respond to the 
terrorist attacks of 2001.
    NIST currently has about 100 programs, supported by approximately 
$60 million in direct appropriations augmented by significant funding 
support from other agencies. This research is coordinated with the 
Department of Homeland Security (DHS) through a Memorandum of 
Understanding signed in 2003 between former Under Secretary for 
Technology, Phillip Bond, and Under Secretary for Science and 
Technology at DHS, Charles McQueary. In addition, other long standing 
relationships with the Department of Justice, the State Department, the 
National Security Agency, and the Office of Management and Budget also 
ensure that NIST's research is sufficiently coordinated. NIST's 
homeland security research spans the following areas:

  <bullet> Chemical, biological, radiological, nuclear, explosive 
        threat detection and remediation
  <bullet> Safety of buildings and structures
  <bullet> Safety and effectiveness of emergency responders
  <bullet> Transportation system safety
  <bullet> Information security
  <bullet> Critical infrastructure protection
  <bullet> Biometric identification
  <bullet> DNA identification and diagnostics

    This afternoon I would like to describe NIST's response to 9/11, 
and then share just a few examples of other NIST research supporting 
homeland security.
NIST Response to 9/11 and the World Trade Center Report
    As I previously stated NIST responses to the terrorist attacks of 
2001 were swift. Shortly after September 11, 2001, NIST building and 
fire experts joined teams of scientists and engineers in assessment of 
how the Pentagon as well as the World Trade Center buildings were 
severely damaged or collapsed in the attacks. Two months later, NIST 
experts presented to the U.S. Army Corps of Engineers a report of 
recommendations for rebuilding and retrofitting the Pentagon that would 
improve the Pentagon's resistance to similar attacks. NIST also 
provided assistance to the New York City medical examiner in 
identifying victims of the World Trade Center by validating existing 
methods and devising new DNA analysis techniques to allow 
identifications that would not otherwise have been possible due to 
small and degraded samples. In addition, NIST contributed expertise on 
life-cycle cost analysis and priority setting that are key components 
of the risk assessment guide issued by the Federal Emergency Management 
Agency (FEMA) to mitigate potential terrorist attacks against 
buildings.
    After the October 2001 bioterrorist attacks, NIST worked with 
federal agencies and the private sector to ensure that commercial 
radiation facilities could effectively sterilize U.S. mail contaminated 
with anthrax. NIST worked with the Armed Forces Radiobiology Research 
Institute in Bethesda, the U.S. Postal Service, and other agencies to 
solve this challenging problem.
    When the Hart Senate Office Building in Washington, DC was 
contaminated with anthrax, NIST experts in ventilation systems and 
indoor air quality modeled the different ways air flow in the building 
may have disseminated the anthrax spores. These models helped the 
Environmental Protection Agency plan the decontamination of the 
building. Since then, similar models have been used to evaluate 
protection technologies such as air filters, air cleaners, and sensor-
driven ventilation systems, and one was incorporated into the Immune 
Building Toolkit developed by the Defense Advanced Research Projects 
Agency (DARPA).
    The collapse of New York City's World Trade Center structures was 
among the worst building disasters in recorded history. As part of its 
larger effort to save lives in future terrorist attacks or natural 
disasters, NIST has been carrying out a response plan with three parts:

  <bullet> A building and fire safety investigation of the probable 
        causes of the WTC tower collapse after terrorists flew jet-fuel 
        laden airliners into the buildings, and the associated 
        evacuation and emergency response procedures.

  <bullet> A research and development program to provide the technical 
        basis for improved building and fire codes, standards, and 
        practices.

  <bullet> A dissemination and technical assistance program to engage 
        leaders of the construction and building community in 
        implementing proposed changes to practices, standards and 
        codes.

    The investigation was conducted with $16 million in funding by the 
U.S. Congress from an emergency supplemental appropriation and 
transferred to NIST from FEMA. It builds on the findings and 
recommendations of an earlier WTC building performance study conducted 
jointly by FEMA and the American Society of Civil Engineers.
    The investigation's analysis, which is the most detailed 
examination of a building failure ever conducted, established the 
probable sequences for the collapse of each tower:

        1. The aircraft impact severed perimeter columns, damaged 
        interior core columns, and dislodged fireproofing off 
        structural beams.

        2. The fires, which were initiated by jet fuel but fed by 
        building contents such as furniture and paper, weakened the 
        building core.

        3. The fires also weakened floors, which sagged and pulled 
        inward on the perimeter columns.

        4. The fire weakened perimeter columns bowed inward and buckled 
        due to the floor pull-in forces, leading to collapse.

    Along with this analysis, NIST released in April drafts of 15 
reports from three projects of the investigation:

  <bullet> Analysis of building and fire codes and practices
  <bullet> Occupant behavior, egress and emergency communications
  <bullet> Fire service technologies and guidelines

    Recommendations for improvements to building and fire codes, 
standards and practices derived from these and the other five projects 
in the investigation will be released for public comment later this 
month, along with the draft of the final investigation report and 
drafts of 27 reports from the remaining five projects.
Additional Homeland Security Research
    NIST, with its diverse research portfolio is also supporting the 
Nation's homeland security efforts in a number of ways that are not 
directly related to the attacks of 9/11.
Cybersecurity
    Cybersecurity work at NIST plays a key role in addressing the 
urgent need to improve the cybersecurity posture of the Nation, and in 
particular that of the Federal Government. Some examples of recent and 
continuing NIST work in this field are:

  <bullet> NIST is developing minimum security controls for all federal 
        computer systems. This effort will have a huge impact on the 
        Nation. These minimum security controls will be mandatory for 
        federal agencies, although we expect they may become a de facto 
        standard in the private sector as well.

  <bullet> NIST continues to publish a wide range of cybersecurity 
        standards and guidelines, which are available free on NIST's 
        Web site. These are frequently used by the private sector, 
        state and local governments, and even some foreign governments. 
        Our contingency planning guideline alone was downloaded more 
        than 400,000 times during the first year it was available.

  <bullet> Homeland Security Presidential Directive #12, which mandates 
        a common identification standard for all federal employees and 
        contractors, requires NIST to develop a series of standards 
        leading to reliable and secure ``smart cards.'' NIST computer 
        security specialists worked closely with other federal 
        agencies--including the Office of Management and Budget, the 
        Office of Science and Technology Policy, and the Departments of 
        Defense, State, Justice, and Homeland Security--as well as 
        private industry, to develop Federal Information Processing 
        Standard 201, Personal Identity Verification of Federal 
        Employees and Contractors.

  <bullet> NIST is supporting the Small Business Administration in 
        security outreach activities to small businesses.

  <bullet> NIST is developing cryptographic standards for ``constrained 
        environments.'' An example is a ``smart card'' with limited 
        memory and little or no computing power.

  <bullet> NIST is beginning work to develop security checklists for 
        computer systems that control buildings and manufacturing 
        processes.

  <bullet> NIST is developing the National Vulnerability Database, a 
        comprehensive information technology database and search engine 
        that integrates all publicly available U.S. Government 
        vulnerability resources and provides links to industry 
        resources.

  <bullet> NIST is working to develop metrics for the effectiveness of 
        software assurance tools, and assessing current methods and 
        tools in order to identify deficiencies which can lead to 
        software product failures and vulnerabilities.

  <bullet> NIST continues to develop security guidelines/best practices 
        on risk assessment, media destruction and sanitization, desktop 
        IT security scenarios, and malware mitigation measures.

    Additionally, NIST's Hollings Manufacturing Extension Partnership 
is beginning its outreach activities to small and medium sized 
manufacturers by providing them guidance with vulnerability 
assessments, business continuity, and supply chain implications.
Biometrics
    As part of its fulfillment of the Patriot Act, NIST conducted the 
Fingerprint Vendor Technology Evaluation in 2003. The 18 competing 
companies used 34 different fingerprint matching systems. The 
evaluation, which was based on fingerprint data from a variety of U.S. 
and State Government sources, tested performance accuracy for various 
numbers and types of fingerprints.
    The evaluation demonstrated the significance of fingerprint quality 
as well as the number of fingers used. (The matching accuracy using 
four fingers was better than the accuracy using only two fingers, which 
in turn was better than single-finger matching.) The test also showed 
that the most accurate fingerprint systems perform better than the most 
accurate facial recognition systems, even when using only a single 
fingerprint.
    NIST's key Patriot Act recommendations included in the report to 
Congress titled ``Use of Technology Standards and Interoperable 
Databases with Machine-Readable, Tamper-Resistant Travel Documents'' 
dated February 2003:

        1. For verification (``one-to-one matching'' to establish that 
        the person is who he/she claims to be), NIST recommends one 
        face image and two index fingerprints.

        2. For identification (``one-to-many matching'' to find the 
        identity of a person in a large database), NIST recommends ten 
        slap fingerprint images for enrollment and checking of large 
        databases. Face images are not recommended.

    The Consolidated Appropriations Act, 2005, provided an increase of 
$2.0 million to NIST's biometric program. This new funding will allow 
NIST to begin testing the accuracy of multimodal systems, develop 
guidelines for testing fingerprint segmentation methods, and 
determining the influence of multiple images on the accuracy of facial 
biometrics.
Radiation detectors
    NIST, in cooperation with the American National Standards Institute 
(ANSI), has an extensive program to develop and support standards for 
the radiation detectors used by first responders and for other homeland 
security applications. The standards will help first responders and 
government agencies make better use of existing equipment and acquire 
the right equipment for emergency response, and they will encourage 
manufacturers to better design instruments and represent their 
specifications to agency and responder buyers.
    This program includes:

  <bullet> Leadership in the development of the four ANSI standards 
        that are currently released. These standards cover electronic 
        personal alarming detectors (called ``pagers''), personal 
        radiation dosimeters, portable instruments, radionuclide 
        identifiers (specialized devices that can identify specific 
        radioactive materials), and portal monitors.

  <bullet> Ongoing development of newer standards, such as for portal 
        monitors with radionuclide identification.

  <bullet> Leadership in the development of test and evaluation 
        protocols for determining whether such radiation detectors meet 
        the technical requirements of the new ANSI standards.

    As an example of the application of the new standards, NIST 
recently tested 31 commercial detectors, including hand-held survey 
meters, pagers, and radionuclide identifiers. Federal, state, and local 
agencies are using such instruments as part of homeland security-
related efforts to detect and identify radioactive materials. The tests 
determined that portable radiation detectors generally perform well 
against the new consensus standards but provided inaccurate readings 
for certain types of radiation. Researchers compared the device 
readings to NIST measurements for different radiations levels. The 
majority of the detectors agreed with NIST-measured values but some 
detectors tested had a large discrepancy in readings for the lowest-
energy X-rays, and were much larger than those stated in manufacturers' 
specifications.
    Other examples of NIST work related on radiation detectors include 
the following:

  <bullet> Technical guidance for emergency responders.

  <bullet> Development of a test bed for evaluating hand-held 
        radiological detectors and truck portal monitors.

  <bullet> Development of NIST-traceable test sources for gamma rays 
        and neutrons used in calibrations of detectors.

  <bullet> Development of methods, testing materials, standard 
        reference materials, and measurement validations for 
        radiological clean-up and mitigation.

Public Safety Communications Interoperability
    NIST's Office of Law Enforcement Standards (OLES) is the common 
technical thread that is working to facilitate local, state, and 
federal communications interoperability efforts through the consensus 
standards process. Funded through SAFECOM, a program of DHS's Science 
and Technology Directorate's Office for Interoperability and 
Compatability, the Department of Justice's Community Oriented Policing 
Service, and the Advanced Generation of Interoperability for Law 
Enforcement (AGILE) program, OLES has been employing a structured 
approach for confronting interoperability standardization issues. This 
standardization strategy is centered on the development of an 
architectural framework that satisfies the real-world requirements of 
public safety responders. The framework defines the overall structured 
approach for facilitating interoperability. Functional Standards (in 
the form of Interface Specifications) then define the details of the 
structure, and indicate how the architecture (and its components) will 
operate. Although progress has been slow in the development of these 
standards, significant progress has been achieved within the last year. 
OLES helped to complete the Public Safety Statement of Requirements for 
Wireless Communications and Interoperability on behalf of SAFECOM in 
March 2004. This is the first comprehensive, practitioner-accepted, 
record of the telecommunication needs of the public safety community 
within and across local, state, federal, and tribal boundaries.
    Additionally, OLES on behalf of DHS SAFECOM, produced a draft of an 
architectural framework which is in essence a map that shows a network 
of networks and a system of systems approach which will be employed by 
public safety in the future. In response to Congress' call for 
immediate standards for communications interoperability, NIST, along 
with DHS and DOJ, have developed a partnership with public safety 
leadership to either significantly accelerate the current P25 standards 
development or develop interim communications standards in the absence 
of P25 standards. Additionally, Congress requested that SAFECOM produce 
a report on the plan for accelerating the development of national 
voluntary consensus standards for public safety interoperable 
communications. It is expected that because of the recent efforts by 
NIST and its partners, key interoperability standards will be published 
by the end of 2005, and products employing these standards would be 
available by the end of 2006.
Operations in Collapsed Buildings
    In 2001, search-and-rescue robots that had been tested on a special 
NIST course penetrated areas too small and too hazardous for emergency 
responders to locate remains of several victims at the World Trade 
Center site. At that time, NIST already had expertise with collapsed 
buildings, including setting up competitions designed to accelerate the 
development and testing of urban search-and-rescue robots. Last year, 
NIST organized competitions in New Orleans, San Jose, and Lisbon, 
Portugal. More broadly, NIST has launched a DHS-funded multi-year 
program to develop comprehensive standards and performance metrics for 
urban search-and-rescue robots.
    Collapsed buildings also present a significant problem in terms of 
radio communications. First responders who rely on radio communications 
often lose signals in shielded or complex environments such as in steel 
and reinforced concrete high-rise structures, and in the basements or 
elevator shafts of buildings. It also is very difficult to detect radio 
signals through the dense rubble of a building that has collapsed as a 
result of natural disasters or terrorist attacks. To simulate disaster 
environments, NIST is using real-world ``laboratories''--buildings that 
are scheduled to be imploded as part of construction and recycling 
projects--such as the old Washington Convention Center and Veterans 
Stadium in Philadelphia. After the implosion, NIST researchers studied 
various schemes for detecting signals by searching with directional 
antennas and by connecting detectors to metal debris found within the 
rubble of the building. A technical report on these experiments will be 
published this summer.
Forensic Analysis of Magnetic Audio Tapes
    NIST recently developed a real-time magnetic imaging system that 
enables crime investigators to ``see'' signs of tampering in audio 
tapes, such as erasing and overdubbing. The new system, which permits 
faster screening and more accurate audiotape analysis than previously 
possible, was recently delivered to the Federal Bureau of Investigation 
(FBI) Forensic Audio Analysis, which receives hundreds of audiotapes 
annually for analysis. Representing evidence from crimes such as 
terrorism, homicide and fraud, these tapes come from a wide variety of 
devices, including answering machines, cassette recorders and digital 
audiotape recorders. The benefits of the NIST system are its speed in 
correlating sounds with magnetic marks on tape, and the fact that it 
makes an image without damaging the tape.
Detection of Explosives and Toxic Chemicals
    The cost and size of devices for detecting toxic airborne chemicals 
largely limits them to specialized equipment designed for use by the 
military or by first responders to chemical spills. In the event of an 
attack involving toxic chemical agents--such as the sarin gas attack in 
a Tokyo subway station--such portable detectors typically would not 
arrive on the scene until after victims had been harmed.
    NIST is conducting research on a class of microsensors that has the 
potential to serve as a cost-effective early warning system for toxic 
gases and may also be applicable to the detection of vapors from 
explosive materials. The NIST devices use an array of microscopic 
hotplates coated with a film that is sensitive to ambient chemicals. A 
key advantage of this technology is that various types of films can be 
combined with multiple types of temperature cycles. An array of 
hotplates can thus produce a ``signature'' that can be matched against 
a library of chemical signatures to identify both the type and 
concentration of the toxic gas. Another advantage is that the 
microsensors can be produced inexpensively with electronic processing 
circuits built in. Preliminary testing at the Army's Edgewood Arsenal 
has confirmed that 1-part-per-million sensitivity is feasible with 
actual chemical warfare agents.
Standards Development Organizations
    Besides the research done in our laboratories, NIST works with 
private sector Standards Development Organizations (SDO's) on the 
implementation of homeland security standards.

  <bullet> NIST assisted the DHS Science and Technology Directorate, 
        Standards Portfolio in developing and implementing a formal 
        procedure for the adoption of standards.

  <bullet> NIST is assisting DHS in the coordination of public and 
        private resources for the development of technical standards 
        that support homeland security. The primary focus of this 
        coordination is the American National Standards Institute's 
        Homeland Security Standards Panel, which is co-chaired by Mary 
        Saunders of the NIST Standards Services Division.

  <bullet> NIST recently leveraged its technical expertise in ion 
        mobility spectrometry (IMS) to establish minimum performance 
        requirements and an associated test method for detectors of 
        trace explosives based on IMS. Although some first responders 
        already use IMS trace detection equipment, a documentary 
        standard was needed to address the wide variety of possible 
        future uses. The standard was developed with input from six 
        detector manufacturers, state and local government agencies, 
        federal agencies such as the U.S. Coast Guard, the Bureau of 
        Alcohol, Tobacco, Firearms and Explosives and the 
        Transportation Security Administration, and security 
        professionals such as the U.S. Secret Service.

Conclusion
    As the Committee can see by the few examples I have cited, NIST has 
a very diverse portfolio of research activities supporting our Nation's 
homeland security effort. After the terrorist attacks of 9/11, NIST 
responded to the research challenges it faced. NIST's long history of 
research supporting homeland and national security is helping to enable 
the development and effective deployment of new technologies to protect 
the homeland. Once again thank you for inviting me to testify about 
NIST's activities and I would be happy to answer any questions you may 
have.

    Senator DeMint. We'll save our questions until we finish 
the panel.
    Admiral.

  STATEMENT OF VICE ADMIRAL CONRAD C. LAUTENBACHER, JR., U.S. 
              NAVY (RETIRED), UNDER SECRETARY OF 
              COMMERCE FOR OCEANS AND ATMOSPHERE; 
                      ADMINISTRATOR, NOAA

    Admiral Lautenbacher. Thank you, Mr. Chairman, Senator 
Nelson, and staff members. It's a great pleasure and privilege 
to be able to testify today before you about NOAA's 
contributions to the national homeland security mission.
    NOAA is a science-based agency, but provides service to our 
country 24-by-7. That 24-by-7 information underpins 30 percent 
of our GDP, so it's extremely important to our economic 
security, as well as our physical security. We work hard to 
ensure that we meet those demands that the economy and society 
places on us.
    We have a list of capabilities, of over 50, that are vital 
to the security of this Nation. With the time limits that I 
have, I will mention a few, and there are others that are 
listed in our--in my formal testimony, for the record.
    In addition, because of the importance of this information 
to the economy, we work very hard at our internal security. We 
need to ensure that the information provided for the--running 
the economy is available 24-by-7, and we have spent the last 
several years ensuring the continuity of that data to all 
segments of society.
    The first topic I'd like to mention is alerts and public 
warnings. The National Weather Service branch of NOAA has 
something called the NOAA Weather Radio. That is the only 
system in our Nation that goes directly into every home, every 
school, every fire station, and all of the press. It provides 
those alerts and warnings that you see across your television 
that tells you you're going to have a severe thunderstorm or 
there's going to be lightning or hail or a tornado or a 
hurricane, flooding. That system is alarmed, and is--now covers 
98 percent of our country.
    We have signed, this last year, a memorandum of agreement 
with the Department of Homeland Security to make that part of 
the national warning system, so that, as of today, all types of 
hazards that can affect our communities are inserted into NOAA 
Weather Radio. So, if you have a NOAA Weather Radio, you'll be 
warned of chemical spills, of any biohazards, of significant 
local events. It goes into all of our weather forecast offices. 
And any event, whether it's natural or manmade or of a 
terrorist nature, will be available for alerting the public on 
NOAA Weather Radio, All Hazards.
    We also have an agreement with the Department of Education 
and DHS to provide the NOAA Weather Radio to public schools in 
selected areas. We're looking to make sure that eventually all 
schools in the United States have these radios available for 
building emergency plans.
    Let me move on to forecasts and dispersion modeling. One of 
the more interesting issues that we have for natural disasters, 
as well as manmade disasters, is what happens when chemicals or 
dangerous substances get into the atmosphere. What types of 
forecasts do we need to ensure the safety and security of our 
Nation? We have built numerical models of the atmosphere, which 
is what we're strong into, as our charge is for weather 
information. It's used for flight planning, ship routing, 
energy distribution, as well as many other activities. Our air-
dispersion models help emergency planners detect and track 
chemical, biological, and radiological hazards, as well.
    First-responders can use laptop applications that we've 
developed to be able to tell where a plume, a hazardous plume, 
will be going, and track it, and use it to be able to develop 
evacuations and mitigation procedures for our towns and cities 
across the Nation. We are now conducting a pilot program to 
integrate realtime weather models with hazardous-plume 
predictions, so it can be simultaneously provided to all 
forecast offices and all emergency managers across the country.
    We have a special operation going in here, in Washington. 
We call it DCNet. It is a system for taking data in the urban 
canyons of our major city here, of Washington, and building 
models that will allow us to provide the micro-level 
information for accurate evacuation and homeland security in 
Washington. During the 2005 Presidential inauguration, NOAA and 
DHS closely monitored this information, and it was 
instantaneously available for anything that might need to be 
covered during the inauguration procedures.
    We have conducted major atmospheric dispersion field 
studies with other federal agencies in a number of cities 
across the country. We also are doing the same kinds of 
modeling for fluid mechanical models in the ocean and our 
coasts, which are very important in harbor areas and for safety 
of seafood and our water-quality issues for bathers.
    Let me move on to remote sensing. We have started to 
evaluate a Predator B aircraft to look at ways to obtain 
continuous data for oceanic and atmospheric research, for 
nautical charting, to tell what's going on, as well as 
fisheries assessment and enforcement. This is dual-use 
technology that's of value both to security, as well as to 
environmental monitoring. We believe that the same systems that 
we can use for national security are valuable, as well, for 
environmental monitoring, and we are working together with DHS 
and the services to further explore the value of remote sensing 
devices.
    The Integrated Ocean Observing System and something called 
Maritime Domain Awareness. We have a program to develop an 
Integrated Ocean Observing System. We believe, as we did with 
the--I mentioned the Predator--use of the Predator--that this 
is a system of dual usage again. It includes buoys in the 
water, underwater listening devices, as well as satellite 
passes, aviation monitoring of the atmosphere around our 
coasts. That system can pick up a great deal of information for 
what people in Maritime Domain Awareness call a ``common 
operating picture'' of understanding what's going on in our 
coasts.
    We also have built into our capability for surveying our 
harbors and our coasts. Remember, NOAA is the agency that 
produces all the charts for bringing the ships--our $1 trillion 
maritime industry depends on that information. NOAA performed 
the baseline assessments after 9/11 to ensure that--for our--
half of the country--Navy did half, Coast Guard did part, and 
we did half--to ensure there were no mines or other types of 
potential hazards in the water to our ports. We are now 
building a way to do that much more rapidly and safely by the 
use of autonomous underwater vehicles and autonomous surface 
vehicles to enhance the speed of survey and ensuring that we 
understand exactly what's in our port, in our channels, in our 
harbors as our ships come and go.
    We have implemented something called a National Vessel 
Monitoring System that goes with--it's in concert with an ocean 
observing system. This was designed to keep track of fishing 
vessels, the fishing fleet, the civilian fishing fleet that's 
out there, but it is, in fact, a way to track all sorts of 
things that are going on. The system, itself, uses satellite 
communications. A global positioning system reports back to a 
central command center. And it allows us to keep track of where 
fishing vessels are, or are not, and what they're doing, so 
that we can maintain integrity of our fishing rules and 
regulations. It's also a system that allows us to tell what's 
going on in any case in those waters, because our fishing fleet 
goes from the coast of Maine to the Bering Sea in Alaska, and 
provides realtime data for the Coast Guard to work on for 
enforcement.
    We've also installed radio transmitters on buoys that we 
have in the near coast that directly connects the Coast Guard 
to their automatic information system, so that these buoys act 
as transponders, so that the Coast Guard can gain a picture, 
operating picture, further out into the EEZ and maintain our 
security defenses farther away from our coasts.
    And one last point is response. We have a wide range of 
response capabilities. And, for instance, after the hurricanes 
that we had last season, we deployed something we call 
Navigation Response Teams. These are quick-reaction teams that 
can go out and open ports and harbors from changes that might 
have occurred, or at least survey and provide the proper 
information to our ships and maritime industry that uses the 
coasts. We can do this quickly. We helped reopen the Gulf Coast 
ports and their East Coast ports within several days after the 
hurricanes passed, this last year.
    With that, I wish to conclude my testimony and, again, 
thank the Committee for their support of NOAA and our programs. 
And I stand by to answer your questions.
    Thank you.
    [The prepared statement of Admiral Lautenbacher follows:]

Prepared Statement of Vice Admiral Conrad Lautenbacher, Jr., U.S. Navy 
   (Retired), Under Secretary of Commerce for Oceans and Atmosphere; 
                          Administrator, NOAA
    Mr. Chairman and Members of the Committee, I am Conrad 
Lautenbacher, Administrator of the National Oceanic and Atmospheric 
Administration (NOAA) of the Department of Commerce. Thank you for the 
opportunity to appear before you today to discuss NOAA's contributions 
to the national homeland security mission. I am proud to lead a team of 
men and women whose daily activities advance our homeland security and 
strongly believe NOAA's contribution is of tremendous benefit to the 
United States.
    Although NOAA is best known as a premier science and service agency 
whose mission is to describe and predict changes in the Earth's 
environment, NOAA's expertise and services can be applied to many other 
areas, including national security. NOAA's responsibilities for the 
environment, safety, and commerce of this Nation span the oceans, 
coasts, and atmosphere. The capabilities that are part of NOAA's 
standard daily operations often are vital during times of emergency.
    NOAA has established a Homeland Security Program Office to serve as 
the principle point of contact for NOAA regarding homeland security 
programs across the entire Agency. This office coordinates homeland 
security programs, ensures continuity of operations, and prepares for 
continued delivery of services during emergencies.
NOAA Homeland Security Products and Services
    After reviewing the full range of its capabilities, NOAA has 
identified more than 50 capabilities that could immediately advance the 
Nation's homeland security efforts. NOAA leverages these already 
existing programs, technologies, and expertise in new and innovative 
ways to assist the U.S. Department of Homeland Security (DHS) and has 
actively partnered with many other agencies (state, local and federal) 
to address homeland security issues. I will review a few of our 
contributions.
Alerts and Public Warnings
    The National Weather Service broadcasts warnings, watches, 
forecasts, and other hazard information regarding tornados, flash 
floods, and other potential life-threatening situations 24 hours a day, 
7 days a week, via a nationwide network of radio stations. NOAA 
coordinates these warnings and advisories with the Federal Emergency 
Management Agency. Working with the Federal Communications Commission's 
Emergency Alert System, the NOAA Weather Radio was expanded to serve as 
an ``all hazards'' radio network. In June 2004 this system's 
capabilities were further expanded to allow DHS to send critical all-
hazards alerts and warnings directly through the NOAA All-Hazards 
Network. The NOAA All-Hazards Network consists of over 950 radio 
transmitters located throughout the United States and U.S. possessions 
and territories, allowing the transmission of weather watches, 
warnings, and advisories as well as non-meteorological civil emergency 
messages to over 97 percent of the population. NOAA Weather Radio/All-
Hazards now provides alerts for both natural (severe storms, 
hurricanes, tornadoes, earthquakes, and volcanic activity) and 
environmental (chemical spills and bio-hazardous releases) events. The 
all-hazards capability is being implemented through agreements with 
local, state, and federal emergency managers and first responders. NOAA 
is presently developing a capability to reduce the time it takes for an 
emergency manager to input a hazard warning into NOAA Weather Radio/
All-Hazards. This will reduce the input time from 7 minutes to less 
than 2 minutes. This capability will allow emergency managers direct 
access to the Emergency Alert System via NOAA Weather Radio/All-
Hazards, and is expected to be fully operational in Fiscal Year 2006.
    To complement this new homeland security messaging capability, we 
will work with DHS and the U.S. Department of Education to provide NOAA 
Weather/All-Hazard Radios to public schools in select top urban areas 
and two rural states during National Preparedness Month in September 
2005.
    In addition to the traditional weather radio that many are familiar 
with, NOAA Weather Radio/All-Hazards receivers can be integrated into 
devices to turn on alarms, lights, bed shakers, and other equipment 
especially useful for the hearing impaired community and those with 
special needs. RCA/Thomson has developed a new line of televisions, 
called AlertGuard, which integrate a NOAA Weather Radio/All-Hazards 
receiver into television sets.
    DHS is leading the effort to develop a government-wide plan for the 
Integrated Public Alert and Warning System (IPAWS). Public warnings 
save lives by informing, reducing fear, and assisting emergency 
managers. There are many warning systems in place across the country, 
and while each of these systems can reach the public directly, no one 
system reaches everyone. NOAA information dissemination systems, 
including NOAA Weather/All-Hazards Radio, as well as information posted 
directly on the Internet and supplied to radio and television stations, 
will be a part of a larger integrated national emergency warning 
system.
    In response to the 2004 Indian Ocean Tsunami, NOAA is committed to 
expand the U.S. Tsunami Warning Program to protect U.S. lives and 
property along all coasts (Pacific, Atlantic, Gulf of Mexico, and 
Caribbean). In order to continue the Administration's commitment to 
strengthen the Tsunami Warning Program and mitigate potential impacts 
from a similar tsunami event in the U.S., NOAA will build on its 
existing foundation of sensors. NOAA will accomplish this by deploying 
39 additional Deep-ocean Assessment and Reporting of Tsunamis (DART) 
buoy systems strategically sited in the Pacific, Atlantic, and 
Caribbean basins. Data from DART buoys will aid U.S. tsunami 
forecasters in providing detailed tsunami forecasts. The enhanced 
program will also aid tsunami hazard mitigation actions including 
inundation flood mapping, evacuation mapping, and community-based 
public education, awareness, and preparedness. NOAA will operate and 
maintain the expanded DART system, new sea-level monitoring stations, 
and the upgraded local seismic networks from the 24/7 West Coast/Alaska 
Tsunami Warning and Pacific Tsunami Warning Centers.
Forecasts and Dispersion Modeling
    NOAA forecasts include the creation of numerical models of the 
atmosphere used for flight planning, ship routing, and energy 
distribution. These numerical forecasts are used to model the 
dispersion of airborne hazardous materials such as volcanic ash, 
industrial chemical releases, and radiological accidents.
    NOAA's operational air dispersion models help emergency planners 
detect and track chemical, biological, and radiological hazards in the 
atmosphere. When an event occurs, first responders can use laptop 
applications for hazardous material (hazmat) modeling of industrial 
chemicals on scene and NOAA regional models accessible through the 
local Weather Forecast Office.
    One of NOAA's major contributions in emergency preparation and 
response is the software program CAMEO (Computer-Aided Management of 
Emergency Operations). Jointly designed with the Environmental 
Protection Agency (EPA), CAMEO is widely used by firefighters and 
serves as a primary tool in preparing for and responding to chemical 
incidents. An updated version of CAMEO was released in March 2004. It 
contains a chemical database of over 6,000 hazardous chemicals with 
chemical-specific information on fire and explosive hazards, health 
hazards, firefighting techniques, cleanup procedures, and protective 
clothing. NOAA and EPA are expanding the CAMEO chemical database to 
include information on weapons of mass destruction. The ALOHA (Areal 
Locations of Hazardous Atmospheres) atmospheric dispersion model is a 
computer program used in conjunction with the CAMEO to predict how a 
hazardous gas cloud might disperse in the atmosphere after a chemical 
release based on the physical characteristics of the released chemical 
and atmospheric conditions. The program can display the location of 
facilities storing hazardous materials as well as buildings of high 
concern, such as hospitals and schools. ALOHA is being expanded to 
predict the impact of fires and explosions.
    NOAA's Air Resources Laboratory and Hazmat program are in the early 
stages of developing a Chemical Threat Analysis Planner to improve our 
ability to evaluate potential threats from hazardous material releases 
using the HYSPLIT dispersion model in conjunction with the CAMEO 
database. Additional future developments will fully integrate CAMEO/
ALOHA with national-level emergency information management systems 
including the Interagency Modeling and Atmospheric Assessment Center 
(IMAAC).
    Under the National Response Plan, the IMAAC is the single source of 
federal hazards prediction information during the response and recovery 
phase of Incidents of National Significance for atmospheric transport 
and dispersion of hazardous releases. NOAA is working with DHS to 
develop procedures to organize and coordinate federal emergency 
response through this Center, providing decision-makers with custom 
products and a single point of contact for all-hazards dispersion 
modeling predictions and assessments. NOAA and DHS are working to 
integrate CAMEO/ALOHA and HYSPLIT into the suite of IMAAC.
    NOAA is conducting a pilot program to integrate real-time weather 
models and hazardous plume predictions to provide DHS with the ability 
to identify specific areas to issue targeted homeland security alerts 
and warnings using reverse 911 technologies. In this pilot program, 
called Geo-Targeted Alerting System (GTAS), forecasters at the NOAA 
Weather Forecast Office located in Sterling, Virginia will provide DHS 
with toxic plume dispersion information. Given the dispersion forecast 
of a toxic cloud, DHS officials will be able to select several 
``targeted'' warning areas to provide specific public safety 
information for each area using applications developed by NOAA's 
Forecast Systems Laboratory.
    Monitoring stations have been installed in Washington, DC, to 
support one of the first dispersion forecasting systems specifically 
designed for urban areas. These stations, known as DCNet, collect and 
analyze standard meteorological data (as well as wind speed, direction, 
and turbulence data) at frequent intervals to help define downwind 
areas of potential high risk. In doing so, DCNet allows users to gain a 
better understanding of how hazardous trace gases and particles are 
dispersed in urban areas. During the 2005 Presidential Inauguration, 
NOAA and DHS closely monitored this information, which was then 
immediately available for dispersion model runs in the event of an 
incident.
    NOAA has provided much of the Nation's atmospheric tracer expertise 
since the 1950s. The center of excellence resides within the Air 
Resources Laboratory (ARL) at Idaho Falls, Idaho where the ARL Field 
Research Division is located. In recent years, the ARL team has 
conducted field studies in Salt Lake City and Oklahoma City, to support 
the major atmospheric dispersion field studies conducted under the 
sponsorship of a number of agencies, led by DOE, DHS, and DoD. In the 
last two years, studies have been conducted in New York City and in 
Washington, DC Building upon them, the ARL team is about to engage in a 
new round of fieldwork, again focusing on New York City and Washington, 
DC The DC work will be concentrating on the Pentagon and its 
surroundings (sponsored by DoD), the New York project will focus on 
midtown Manhattan (sponsored by DHS).
    The New York City study also involves two other ARL groups, located 
at Oak Ridge, Tennessee, and Research Triangle Park, North Carolina. 
The Oak Ridge group is leading the design of a surface meteorological 
network to help guide the development of local dispersion forecasting 
(an extension of the DCNet experience in Washington DC), sponsored by 
DHS. The Research Triangle Park group is conducting Comprehensive Fluid 
Modeling studies and wind tunnel physical modeling investigations, both 
sponsored by EPA.
Remote Sensing
    NOAA continues to use Light Detection and Ranging or Lidar, a 
technique similar to Radar, using lasers for mapping terrain elevation 
features and high quality aerial photography to collect data in support 
of homeland security surveys. Specifically, these technologies can be 
used to protect critical infrastructure, aid in disaster response and 
recovery efforts, verify dispersion modeling and provide support for 
special security events.
    Currently NOAA is evaluating a remotely operated aircraft (ROA) for 
future science and operational requirements within the Agency related 
to oceanic and atmospheric research, climate research, marine sanctuary 
mapping and enforcement, nautical charting, and fisheries assessment 
and enforcement. The platform NOAA is using is a variant of the General 
Atomics Aeronautical System's Predator B, a high-altitude, long-
endurance ROA that has successfully supported Operation Iraqi Freedom. 
NOAA worked with the U.S. Coast Guard (USCG) to ensure the common 
operating areas and requirements both agencies shared were incorporated 
into the ongoing planning and operational flights. This interaction has 
resulted in both agencies leveraging their expertise and resources to 
carefully evaluate the potential benefits ROAs may provide for both 
agencies' operational requirements.
    NOAA demonstrated the support ROAs could provide through streaming 
video from a ROA operating off the coast of California and provided to 
the Homeland Security Operations Center (HSOC) in Washington, DC While 
only an initial demonstration, NOAA fed live video imagery over a 
satellite Internet connection to NOAA's Boulder, Colorado facility and 
then directly to the HSOC, showing the potential these platforms can 
provide for both incident and situational management.
Integrated Ocean Observing System and Maritime Domain Awareness
    NOAA has assisted the U.S. Coast Guard and the U.S. Navy in 
implementing the Maritime Domain Awareness (MDA) Program, to develop a 
national strategy to ensure interagency coordination of homeland 
security policy and requirements in marine areas. MDA includes anything 
associated with the global and coastal maritime environment that could 
adversely impact the security, safety, economy, or environment of the 
United States. This knowledge is used both operationally in the 
planning and execution of homeland security missions, and by 
researchers supporting the development of new homeland security 
capabilities.
    To meet a wide range of societal needs, our country has embarked on 
a program to develop an Integrated Ocean Observing System (IOOS). IOOS 
is the integration of existing and planned observing systems to meet 
common research and operational agency needs in the following areas:

  <bullet> Detecting and forecasting oceanic components of climate 
        variability
  <bullet> Facilitating safe and efficient marine operations
  <bullet> Ensuring national and homeland security
  <bullet> Managing resources for sustainable use
  <bullet> Preserving and restoring healthy marine ecosystems
  <bullet> Mitigating natural hazards
  <bullet> Ensuring public health

    The backbone network of coastal observations can be of dual use in 
supporting both civil and homeland security objectives. IOOS will 
enhance national and homeland security in our coastal waters and ports 
through improving Maritime Domain Awareness and through improved 
observations and predictions of the ocean environments in which 
homeland security operations take place.
    On September 24, 2004, Admiral James Loy, Deputy Secretary of the 
Department of Homeland Security, and Paul McHale, Assistant Secretary 
of Defense for Homeland Defense, convened the first meeting of the MDA 
Senior Steering Group. Admiral Loy's opening comments addressed the 
urgent nature of the job at hand, the need to draw on the resources of 
supporting agencies, and the move beyond study to deployable 
capabilities. He made reference to the roll out of the U.S. Commission 
on Ocean Policy Report and noted the reference to an IOOS. He remarked, 
``If that's not Maritime Domain Awareness, I don't know what is.'' 
Admiral Loy recognizes interagency capabilities can be leveraged for a 
proactive, forward deployed maritime defense.
    As a part of this overall program, USCG and NOAA are developing 
marine two-way communications systems on NOAA data buoys to relay 
Automated Identification Signals (AIS) through satellite links to the 
USCG for vessel tracking. AIS is a shipboard system that broadcasts 
vessel data such as name, course, speed, and call sign to other AIS 
vessels and stations for collision avoidance at sea. AIS previously was 
only carried by VHF signal and therefore had a limited range. The 
installation of satellite relays on NOAA data buoys will expand the 
USCG capability to monitor and track vessels approaching U.S. 
territorial waters well beyond the line of site limit for VHF.
    NOAA officers, ships, and Navigation Response Teams surveyed the 
shipping channels of over 30 strategic commercial ports in 2002 to 
collect high-resolution imagery requested by the U.S. Navy. These 
surveys provide the baseline data of pre-existing objects so mine 
countermeasure assets can be utilized more effectively to determine if 
a mine has been placed on the sea floor. Using hydrographic survey 
techniques, NOAA is working with the Navy and USCG to improve our mine 
detection capabilities in ports. NOAA and the Defense Counter Terrorism 
Technology Support Office are developing an Underwater Domain Awareness 
capability for ports, harbors and inland waterways. This partnership 
will support USCG with rapid response capabilities to better detect and 
classify underwater threats and enhance their ability to ensure safe 
and secure waterways critical for the transit of military and 
commercial vessels. In the next phase of this partnership, we will be 
focusing on Autonomous Underwater Vehicles and Autonomous Surface 
Vehicles to improve the speed and flexibility of response and protect 
survey personnel by providing greater stand-off during higher risk 
surveys. Remotely Operated Vehicles will be used for underwater surveys 
to localize and identify detected anomalous objects.
    NOAA has implemented a national Vessel Monitoring System (VMS) 
program that provides infrastructure, economies of scale and 
coordination across National Marine Fisheries Service (NOAA Fisheries) 
regions and offices. The expanded use of VMS provides one of the 
strongest potential solutions to supplement traditional enforcement 
activities. This system provides near-real time fishing vessel 
monitoring, control and surveillance throughout the U.S. Exclusive 
Economic Zone (EEZ), Pacific Ocean, and Atlantic Ocean. It also 
provides critical, life saving, information to the Coast Guard in 
support of their response in Search and Rescue (SAR) missions. VMS uses 
the Global Positioning System (GPS), satellite communications, and a 
secure network to monitor fishing vessel compliance. However, this 
evolving capability could be used for marine enforcement and homeland 
security requirements since it can identify and track vessels, as well 
as provide information for a maritime domain common operating picture. 
An expanded VMS could encompass the entire nation and relay near real-
time data to the USCG for enforcement and homeland security purposes. 
VMS, if fully developed, could provide extensive observational coverage 
of our Nation's EEZ.
Response
    NOAA has a wide range of capabilities in its day-to-day operations 
that can be used to prepare for catastrophic events. For example, 
surveying and charting are NOAA activities mandated by Congress. After 
Hurricanes Frances, Ivan, and Jeanne in 2004, NOAA deployed Navigation 
Response Teams (NRT) for emergency surveying to quickly reopen Gulf 
Coast ports, demonstrating the economic, safety, and MDA benefits of 
rapidly resurveying ports and harbors. The NRTs conduct hazardous 
obstruction surveys along our coasts to update NOAA nautical charts. 
They also serve as research platforms testing equipment and developing 
new ways to effectively and efficiently survey navigable waterways.
    NOAA's hydrographic survey vessels are occasionally called upon by 
the USCG to acquire detailed side scan and multi-beam survey images for 
search and recovery, as was the case following TWA 800 and the EgyptAir 
crashes. In 2004, NOAA assisted a USCG investigation by locating and 
obtaining high-resolution imagery of the Bow Mariner, an ethanol tanker 
that exploded and sank off the Virginia Capes. This capability is 
another weapon in the defense against maritime threats, as it allows 
ports to be re-opened quickly and helps the USCG to design temporary 
lanes and detours based on depth data. We rapidly disseminate chart 
updates and critical chart corrections to the mariner, and we can 
create and distribute temporary charts, overlays and data sets as 
needed by primary responders like the Coast Guard.
    NOAA's Hazmat Scientific Support Coordinators (SSC) work in USCG 
offices, planning for emergencies and developing port-specific incident 
response plans. These plans highlight specific problems, such as those 
faced by chemical facilities in port areas. NOAA also develops computer 
programs used for both incident-specific planning and routine training. 
This preparedness training is vital because, when an event occurs, 
first responders need to have a range of tools they are familiar with 
and can apply. NOAA SSCs are then able to go on-site during emergencies 
to bring all of NOAA's support resources to the table.
    When discussing NOAA's response capabilities, it would be remiss of 
me not to mention the NOAA Corps, one of the Nation's seven Uniformed 
Services. These officers primarily have science and engineering 
backgrounds, stand ready to support the Coast Guard, Department of 
Defense (DoD), and any other federal agency that requires assistance in 
protecting the Nation's security. At the request of the DoD, NOAA has 
provided a summary of its capabilities, ships and aircraft that could 
be used in a national emergency. NOAA's Office of Marine and Aviation 
Operations (OMAO) operates a diverse fleet of research and hydrographic 
coastal and ocean-going vessels ranging in length from 90 to 274 feet, 
as well as helicopters and airplanes. OMAO abilities to assist port 
security efforts include assisting the USCG boarding or inspection 
parties, supporting port/harbor security, providing sophisticated 
airborne chemical detection support, conducting hydrographic surveying/
sea floor mapping and Geographic Information System (GIS) development, 
conducting state-of-the-art sonar operations, and providing additional 
hurricane reconnaissance if U.S. Air Force assets are reassigned.
Space Based Assets
    The National Environmental Satellite, Data and Information Service 
provides real and near-real time satellite imagery through 
geostationary and polar-orbiting environmental satellites. NOAA 
acquires and manages the Nation's operational environmental satellites 
and provides data and information services. Information and 
observations from NOAA's orbital assets are used in weather 
forecasting, aviation and marine operations, agricultural applications, 
on-scene weather support for incidents, sea surface temperature 
measurements for the fishing industry, and volcanic ash detection and 
tracking. However, they can also be used for security purposes.
    NOAA satellite imagery detected the smoke plume emanating from New 
York City following the events of September 11, 2001. Using the NOAA 
Geostationary Operational Environmental Satellite (GOES), we were able 
to detect the development and dispersion of that smoke plume. 
Monitoring the extent and the direction of the plume helped to define 
areas of potential health risk from hazardous particulates in the 
plume. NOAA provided emergency satellite frequencies for the health 
community to relay measurements from air quality sensors at the World 
Trade Center site.
    NOAA licenses and enforces compliance with federal regulations for 
operating a commercial or private earth observing satellite. 
Enforcement of the regulations applying to shutter control or 
restriction of data distribution is essential to ensure national 
security. NOAA enforces stated limitations of the Kyl-Bingaman Act 
prohibiting U.S. commercial satellite companies from collecting and 
releasing imagery of specified areas.
    NOAA's orbital assets also support international search and rescue 
efforts. The satellites carry transponders for search and rescue beacon 
signals from downed air and marine craft, and from personal locator 
beacons. NOAA's search and rescue function is part of an international 
program for detection of distress signals from aircraft, vessels, and 
personal locator beacons. This global program relies on, and supports, 
other nations in the collection and processing of search and rescue 
signals.
    Orbital imagery and data are also used for detecting and monitoring 
of wild fires. Tracking smoke plumes is an important part of the 
response to a fire event as it may create health problems and 
visibility issues. Wind and other weather data from the satellites, 
when paired with the smoke plume detection help us understand the 
extent of the fire, and support other agencies with firefighting 
responsibilities. Most frequently, when NOAA satellites detect a plume 
it is the result of a volcanic eruption. The United States has a number 
of active volcanoes, notably Mt. Spurr in Alaska, and Mt. St. Helens in 
Washington, which are in heavy aviation corridors. Eruptive events 
create very real threats to the aviation industry.
Coordinating Homeland Security Programs
    As I have outlined today, NOAA continues to form collaborative 
partnerships with state, local and federal entities charged with 
addressing homeland security issues. Through the Homeland Security 
Program Office, we provide support directly to DHS. NOAA staffs a desk 
at the Homeland Security Operations Center (HSOC) to provide 
operational communications, information and resource coordination 
supporting management of domestic Incidents of National Significance 
and National Special Security Events. The Homeland Security Program 
Office plays a vital coordination role as the NOAA point of entry into 
Homeland Security operations and is responsible for keeping NOAA 
executive management appropriately informed and engaged.
    The Interagency Incident Management Group (IIMG) is a DHS led 
structure facilitating a comprehensive, integrated and coordinated 
approach to domestic incident management. The IIMG is collocated and 
supported by the HSOC staff. IIMG members provide decision-making 
support to the Secretary of Homeland Security and other national 
authorities during periods of elevated alert and national-level 
domestic incidents. Specifically, NOAA provides subject-matter experts 
supporting chemical, radiological, and nuclear weapons of mass 
destruction events and natural disasters.
    Citizen Corps was launched by DHS ``as a community based initiative 
to engage all citizens in homeland security and community safety and 
family preparedness through public education and outreach, training 
opportunities, and volunteer programs.'' In July 2003 a Statement of 
Affiliation between DHS and NOAA was signed by Undersecretary Michael 
Brown and me in order to establish a collaborative partnership raising 
public awareness about weather and environmental hazards as well as 
promoting actions for public safety.
    NOAA Fisheries' Office for Law Enforcement is dedicated primarily 
to the enforcement of laws that protect and regulate our Nation's 
living marine resources and their natural habitat. NOAA Fisheries' 
special agents and enforcement officers enforce many federal statutes, 
as well as numerous treaties related to the conservation and protection 
of marine resources through the prosecution of both civil and criminal 
violations. Notwithstanding OLE's joint enforcement partnerships with 
27 coastal state agencies, the U.S. Coast Guard continues to be OLE's 
strongest ally in enforcing marine resource laws and fishery 
management. The cooperative support from the Coast Guard enables OLE 
agents and officers to actively respond to suspected violations that 
might otherwise be unattainable.
    With increased emphasis on Homeland Security and inter-agency 
collaboration, OLE's expertise has also been applied to various task 
forces and maritime security initiatives nationwide including MDA, 
border operations and checkpoints, and dock patrols.
Conclusion
    In NOAA's unique role as an information provider, we will continue 
to work closely with our partners to support the Nation with a wide 
range of services and products from hazardous material spill response 
capabilities to atmospheric and waterborne dispersion forecasting and 
support for communities and emergency responders. NOAA also is ready to 
provide NOAA's ships, aircraft, global observing systems, and 
professional law enforcement officers to serve the Nation when the need 
arises. Thank you for inviting me here today to talk about NOAA's 
homeland security programs.

    Senator DeMint. Thank you.
    Dr. Bement?

   STATEMENT OF DR. ARDEN L. BEMENT, JR., DIRECTOR, NATIONAL 
                       SCIENCE FOUNDATION

    Dr. Bement. Good afternoon, Mr. Chairman, Ranking Member 
Nelson, and Subcommittee staff.
    Thank you for the opportunity to present testimony on the 
National Science Foundation's role in advancing science-and-
engineering's capability to enhance the Nation's homeland 
security.
    My written testimony details a number of NSF programs that 
are central to creating knowledge that will have applications 
in homeland security. It also notes how NSF's research programs 
relate to threats and countermeasures identified in an April 
report released by the Office of Science and Technology Policy, 
entitled ``Science and Technology: A Foundation for Homeland 
Security.'' I'll touch on a few topics from my written 
testimony, and will start with disaster response.
    For more than three decades, NSF has supported quick-
response disaster studies that dispatched scientists and 
engineers to the aftermath of crises ranging from natural 
phenomena to manmade. Researchers were in the field within days 
after both the terrorist attacks of September 11, 2001, and the 
recent South Asian tsunami, to gather critical data before it 
was lost to nature and reconstruction. This ephemeral 
information, including assessments of physical damage to built 
and natural environments and social responses, is critical to 
help emergency teams and local leaders better direct future 
rescue efforts, and is vital to understanding and preparing for 
future disasters.
    Second, on detection of CBRNE materials, especially fissile 
materials, a critical capability needed to defend against 
nuclear proliferation and to prevent a nuclear or radiological 
weapon from entering the country is the ability to detect the 
presence of illicit fissile materials. To detect such 
contraband, new sentinel systems and detectors enabled by 
critical advances in the material sciences must be fielded at 
home and abroad. It is widely believed that nanotechnology will 
lead to the advances required to enable these systems.
    As a lead agency of the National Nanotechnology Initiative, 
NSF restructured the program last year, in part to accelerate 
the realization of new nanostructured materials, and, 
therefore, hastened developments to detect chemical, 
biological, radiological, nuclear, and explosive materials.
    Next, to data mining. One subject of intense interest in 
the academic research community comes under the rubric of data 
mining. When large amounts of data are available, whether 
information from scientific equipment, health records, or e-
mail traffic, it is important to be able to extract meaning 
from that information. Data-mining applications and computers, 
generally, have a difficult time understanding what the 
language and the message actually means. NSF-funded researchers 
are developing techniques to provide standardized ``who did 
what to whom, when, and where'' versions of messages written in 
English, Chinese, and Arabic. The underlying techniques have 
applicability in many areas beyond homeland security, such as 
financial and healthcare fraud detection.
    Next, cybersecurity. In the area of cybersecurity, NSF will 
be establishing a new collaborative cybersecurity science and 
technology center this year at the University of California at 
Berkeley. This new cybersecurity center will investigate key 
issues of computer trustworthiness in an era of increasing 
attacks, at all levels, on computer systems and information-
based technologies.
    NSF-supported basic research in important areas as varied 
nanotechnology, linguistics, deception detection, genomics, 
microbiology, engineered systems, and sensor development is 
critical to develop the knowledge base that will protect us 
against existing and future threats.
    But perhaps the most important investment NSF makes in the 
area of homeland security is the education of the Nation's 
future science and engineering workforce. Unfortunately, we now 
see warnings that America's advantage in scientific and 
engineering capital is eroding. The obvious alternative to 
importing S&E manpower to fill the gaps is to grow more of our 
own. We desperately need to broaden participation in science 
and engineering by both increasing the fraction of the general 
population of students in these fields, and by increasing 
participation by under-represented groups.
    I am pleased to note that more than 20,000 minority 
students receive science and engineering bachelors degree each 
year from the institutions in the NSF alliances for minority 
participation. Merely doubling the fraction of these who 
continue on to the Ph.D. would be a major contribution to 
America's domestic S&E manpower.
    Mr. Chairman, the National Science Foundation is committed 
to the advancement of studies that have direct impact on our 
Nation's homeland security. Our dedicated program staff 
understands the significance that science and engineering have 
on security. We work to ensure that capabilities at the 
frontiers of science and engineering today will keep pace with 
the advances and threats of tomorrow.
    NSF works in collaboration with the Department of Homeland 
Security, the intelligence community, the Department of 
Defense, the Department of Energy, federal labs, and the 
private sector to ensure that this wealth of knowledge is 
effectively transferred into capabilities critical for 
advancement in many areas, including homeland security.
    In an increasingly demanding and unpredictable security 
environment, NSF will continue to help shape a more prosperous 
and secure future for ourselves, our children, and future 
generations.
    Mr. Chairman and Ranking Member Nelson, thank you, again, 
for this opportunity to testify on a topic of great importance, 
and I would be pleased to answer any questions you may have.
    Thank you.
    [The prepared statement of Dr. Bement follows:]

  Prepared Statement of Dr. Arden L. Bement, Jr., Director, National 
                           Science Foundation
    Good afternoon. Mr. Chairman, Ranking Member Nelson, and Members of 
the Subcommittee, thank you very much for the opportunity to present 
testimony on the National Science Foundation's role in advancing 
science and engineering's capability to enhance our Nation's homeland 
security.
    As you know, when Congress established the National Science 
Foundation (NSF) in 1950, it gave the agency a broad mission: ``to 
promote the progress of science; to advance the national health, 
prosperity, and welfare; and to secure the national defense . . .'' As 
such, much of NSF's activity directly supports our Nation's ability to 
secure the homeland. NSF plays a critical role in underwriting 
fundamental research, education and infrastructure at colleges, 
universities and other institutions throughout the country. This effort 
produces future generations of world-class scientists and engineers who 
develop ideas and research tools that address the challenges we face 
today and those we will face in the future.
    Research supported by NSF accounts for approximately 13 percent of 
federal support for basic research and approximately 40 percent of non-
life-science basic research at U.S. academic institutions while 
representing less than 4 percent of the federal funding for R&D. This 
work, at the frontiers of knowledge, represents much of our Nation's 
most advanced capability in materials science research, sensors and the 
architecture of sensor networks, genomics, cyber-security, data mining, 
and understanding of human and social dynamics, among others. Much of 
this work has direct impact upon our Nation's present and future-
generation homeland security systems and capability.
    The April 2005 report from the Office of Science and Technology 
Policy (OSTP), Science and Technology: A Foundation for Homeland 
Security, identifies the following areas where our Nation's research 
communities will play vital roles: (1) Science and Technology For 
Defense Against Catastrophic Threats and (2) Science and Technology to 
Counter Terrorism. NSF has supported basic research in these two areas 
from the Foundation's origins and much of today's capabilities can 
trace their lineage back to NSF-sponsored fundamental work. Moreover, 
in response to emerging threats, NSF has increased support for several 
activities outlined as critical in the OSTP report. What I outline 
below are some of the activities sponsored by NSF that directly address 
the topics the OSTP report identifies as critical to advance our 
Nation's science and technology base for supporting homeland security.
The National Science Foundation Research Portfolio:
CBRNE
    As a first example, the OSTP report identifies Radiological and 
Nuclear Countermeasures as a key component to countering the threat of 
weapons proliferation, and the 2002 National Strategy for Homeland 
Security states: ``Our highest scientific priority must be preventing 
terrorist use of nuclear weapons.'' A critical component capability to 
defend against nuclear proliferation and inhibit border penetration by 
a nuclear or radiological weapon is the ability to detect the presence 
of illicit fissile material. To detect such contraband, new sentinel 
systems and detectors enabled by critical advances in material sciences 
must be fielded at home and abroad. It is widely believed among the 
scientific community that nanotechnology will lead the way to the 
advanced capability in material sciences required to enable these 
systems. As the lead agency of the National Nanotechnology Initiative 
(NNI), NSF directed the 2004 restructuring of the NNI in part to 
accelerate the realization of new nano-structured materials and 
therefore hasten developments to enhance our ability to detect 
Chemical, Biological, Radiological, Nuclear and Explosive (CBRNE) 
materials.
    The OSTP report also identifies early detection of Biological and 
Chemical Threat Agents as a critical capability required to enhance our 
Nation's homeland security. The early detection of Biological and 
Chemical Threats, like the ability to detect fissile material, requires 
advanced knowledge of material science and sensor engineering. NSF 
supports both of these activities within and beyond the NNI.
    For instance, NSF funds the Materials Research Science and 
Engineering Centers program. These centers are located at leading 
academic institutions in seventeen states across the country and 
represent a significant portion of our Nation's most advanced work in 
the area of material science. NSF also co-funds a program titled: 
Interaction in Chemistry, Materials Research, Molecular Biosciences, 
Bioengineering, and Chemical Engineering with the National Institute of 
Standards and Technology (NIST). This program was developed to 
facilitate the interaction between NSF-sponsored academic researchers 
and NIST's Chemical Science and Technology Laboratory and Materials 
Science and Engineering Laboratory. These laboratories house NIST's 
activity on chemistry, materials research, molecular biology, 
bioengineering, and chemical engineering, all relevant to advancing our 
capability for detecting chemical and biological threats.
Sensors and Sensor Networks
    In the area of advanced sensors, NSF's Sensors and Sensor Networks 
program seeks to advance fundamental knowledge in the engineering of 
materials, concepts and designs for new sensors, networked sensor 
systems in a distributed environment and the interpretation and use of 
sensor data in decision-making processes. Like most of the activity 
sponsored by NSF, the capabilities enabled represent state-of-the art 
research at the frontiers of knowledge and comprise a significant 
proportion of our Nation's most advanced work on sensor and sensor 
systems. This work includes research that investigates networks for 
health monitoring and damage assessment of the civil infrastructure, 
both physical and cyber. Flexible and scalable software architectures 
and frameworks are being developed to integrate real-time heterogeneous 
sensor data, database and archiving systems, computer vision, data 
analysis and interpretation, numerical simulation of complex structural 
systems, visualization, probabilistic risk analysis, and rational 
statistical decision making procedures.
    To highlight some of this advanced activity, NSF sponsored a media 
briefing last September titled ``Sensors: Buildings, Battlefields, and 
Beyond'' which described what many of our Nation's top technology 
leaders believe is the next generation of the information technology 
revolution, namely the ability to augment our advanced computational 
resources with a wide array of geographically-distributed sensor data. 
Clearly, this focus on sensor and sensor networks will have impact in 
the area of homeland security.
    The OSTP report also identifies Medical Countermeasures to Weapons 
of Mass Destruction (WMD) as a critical capability where our Science 
and Technology community can contribute. While most of our Nation's 
work in this area is supported by the Department of Health and Human 
Services, NSF has and will continue to play a significant role. NSF, in 
collaboration with the Department of Agriculture, has funded a program 
on microbial genome sequencing that provides key information enabling 
identification and understanding of the life functions and ecology of 
microbes, some of which have the potential to be used in biological-
based WMD. The genome sequence of these microbes, once known, can be 
utilized to develop countermeasures such as antimicrobial chemicals and 
vaccines. This jointly funded program also relates directly to 
protecting our agricultural systems from both man-made and naturally 
occurring threats, also identified in the OSTP report as a critical 
initiative.
Agriculture
    Protecting agriculture and our food supply represents a unique area 
where a synthesis of NSF activity contributes to our Nation's homeland 
security. As stated above, NSF co-sponsors research into microbial gene 
sequencing and sponsors sensor and sensor networks, both of which are 
directly related to securing our agricultural supply chain. NSF also 
supports the Biochemical Engineering and Biotechnology program which 
funds technology development for the purpose of monitoring and 
controlling bioprocesses and food processing with a special focus on 
the safety of the Nation's food supply.
    Another area of activity that NSF supports is the Environmental 
Engineering and Technology program. This program focuses on research 
with the goal of reducing adverse effects of solid, liquid, and gaseous 
discharges into land, fresh and ocean waters, and air as a result of 
human activity. This program also supports research on innovative 
biological, chemical, and physical processes used alone or as 
components of engineered systems to restore the usefulness of polluted 
land, water, and air resources. The understanding of these engineered 
systems will lead to advanced national capabilities in the area of 
remediation, an area directly related to homeland security.
    The OSTP report identifies Biometric Identification as a critical 
need and has created the National Science and Technology Council's 
Subcommittee on Biometrics. NSF is represented on this subcommittee and 
also sponsors advanced research at the Center for Identification 
Technology Research as well as numerous grants to the small business 
community that advance state-of-the art biometric capability in a 
commercial setting.
First Responders
    To enhance first responder capability, NSF has sponsored work in 
advanced ad-hoc networking to enable the rapid deployment of 
communications networks. Along with the Department of Defense, NSF has 
sponsored the Center for Robot Assisted Search and Rescue. To advance 
the first-responders capacity to deal with chemical and biological 
threats, NSF has sponsored work that led to the development of an 
advanced material nano-engineered to quickly absorb and destroy a wide 
array of toxic chemicals. The commercial development of this material 
also is being sponsored by an NSF Small Business Innovation Research 
(SBIR) grant. This is one example where original fundamental NSF-
supported academic research and the subsequent support from the NSF 
SBIR program has directly led to a potentially significant advance in 
the area of homeland security. The small business concern is currently 
working with the Environmental Protection Agency to develop capability 
for water remediation.
Information Technology
    Another critical area that pertains to homeland security where NSF 
is actively supporting our Nation's capabilities is in the area of 
Information Technology. Specifically NSF, in collaboration with the 
Department of Homeland Security, supports the Cyber Defense Technology 
Experimental Research network, a collaborative network developed as a 
testbed for cyber war gaming. NSF also supports the Center for Internet 
Epidemiology and Defenses, which is dedicated to wiping out worms and 
viruses that infect thousands of computers and cause billions of 
dollars in damage. These two centers represent just a small fraction of 
the Information Technology Research NSF supports that is directly 
relevant to homeland security.
    Computers, especially those that are networked, reside at the heart 
of systems on which people now rely, both in critical national 
infrastructures and in their homes, cars, and offices. Today, many of 
these systems are far too vulnerable to cyber attacks that can inhibit 
their function, corrupt important data, or expose private information.
    To respond to these challenges, NSF established a new program in FY 
2004 called Cyber Trust to complement ongoing cybersecurity research 
and education investments made in the core Computer and Information 
Science and Engineering programs. The Cyber Trust program promotes a 
vision of a society in which networked computer systems are more 
predictable, more accountable, and less vulnerable to attack and abuse. 
It also foresees systems that are developed, configured, operated and 
evaluated by a well-trained and diverse workforce and used by a public 
educated in their secure and ethical operation. As such, the program 
covers a wide range of research areas. In FY 2006, focused investments 
in this area will be both in foundation establishment and security-
measure development. The former is important since we will only be able 
to develop predictably trustworthy computer systems if we can model and 
analyze cyber-trust-related phenomena. Given security threats faced 
today, we also need to accelerate developing technologies that can 
immediately address these threats.
    I would note that we chose the title ``Cyber Trust'' because our 
understanding is that the public not only wants their information 
systems to be secure, but that they want to trust them in all kinds of 
situations. As a simple example, they need to be able to trust that 
data will be kept private.
    In the area of cybersecurity, NSF announced in mid-April our 
intention to establish two new Science and Technology Centers (STCs) in 
Fiscal Year 2005--one a major collaborative cybersecurity project led 
by the University of California, Berkeley. This new cybersecurity 
center will investigate key issues of computer trustworthiness in an 
era of increasing attacks at all levels on computer systems and 
information-based technologies. The Team for Research in Ubiquitous 
Secure Technology (TRUST) will address a parallel and accelerating 
trend of the past decade--the integration of computing and 
communication across critical infrastructures in areas such as finance, 
energy distribution, telecommunications and transportation. The center 
will merge these efforts with investigations of social science 
questions involving economics, public policy and societal challenges, 
human-computer interfaces and privacy, among other issues.
    NSF also supports a significant amount of work in the area of data 
mining and the Intelligence Community has provided supplemental funds 
to further NSF-sponsored research within this area. For example, novel 
data mining-based anomaly detection techniques developed under NSF 
support have been incorporated in the Minnesota Intrusion Detection 
System (MINDS) that help cybersecurity analysts detect intrusions and 
other undesirable activity in real life networks. MINDS is being used 
at the Army Research Laboratory Center for Intrusion Monitoring and 
Protection and at the University of Minnesota to successfully detect 
novel intrusions, policy violations, and insider abuse that cannot be 
identified by widely used signature-based tools. MINDS allows 
cybersecurity experts to quickly analyze massive amounts of network 
traffic, as they only need to evaluate the most anomalous connections 
identified by the system. Further summarization of these anomalous 
connections using association pattern analysis helps in understanding 
the nature of cyber attacks, as well as in creating new signatures for 
use in intrusion detection systems. The underlying techniques have 
applicability in many areas beyond cybersecurity, such as financial and 
health care fraud detection.
    In addition, NSF has and continues to sponsor research in the 
following areas related to cyber-security:

        a) security of next generation operating systems,
        b) forensic and law enforcement foundations,
        c) human computer interfaces for security functions,
        d) theoretical foundations and mechanisms for privacy, security 
        and trust,
        e) improved ability to certify system security properties,
        f) more effective system monitoring, anomaly detection attack 
        recognition and defense, and
        g) integrating hardware and software for security.

    The Federal Cyber Service Scholarship for Service (SFS) is a 
program co-sponsored by NSF and DHS that seeks to increase the number 
of qualified students entering the fields of information assurance and 
computer security. The SFS program provides scholarship money for a 
maximum of 2 years to outstanding cybersecurity undergraduate and 
graduate students in exchange for an equal amount of time spent in 
Federal Government service after graduation. The SFS has supported 
students who have gone on to either internships or post-graduation 
employment within, among others, the following agencies: CIA, DoD 
(Defense Computer Forensics Lab, NSA), DoE, DHS, DOJ (FBI, CIO), NSF 
and NASA.
Social, Behavioral, & Economic Sciences
    The OSTP report, as well as the recently released report by the 
National Science and Technology Council, Combating Terrorism: Research 
Priorities in the Social, Behavioral, and Economic Sciences, identifies 
research on cultural and sociological factors that may give rise to an 
environment conducive to terrorism as well as research into individual 
behavioral indicators that may correlate with intent to harm as 
important areas of study for the science and technology community. In 
this connection, NSF grants have enabled the sophisticated 
incorporation of geographic and other spatial data into analyses of 
human behavior, they have advanced our understanding of how networks 
link people and organizations, and have supported surveys on religious 
and democratic values in Islamic and third world countries.
    In order to better understand the complex dynamics within and among 
human and social systems and their environments, NSF has recently 
initiated a 5 year, agency-wide research program in human and social 
dynamics. Emerging research and tools will provide a window into the 
human mind that will revolutionize the study of human development and 
cognition, as well as information processing and decision-making by 
groups and individuals. Areas critical to homeland security include 
agents of change, ranging from extremist ideologies to modern 
technology; the dynamics of human behavior, which includes such topics 
as effective human-machine interfacing, and decision-making and risk, 
which has special relevance to preventing, communicating about and 
recovering from the destructive consequences of extreme events.
    The Intelligence Community and NSF are also sponsoring research on 
the detection of deception that includes investigation and development 
of behavioral biometrics (measurable behavior traits acquired over 
time), content analysis in foreign documents and speech, alternatives 
to the polygraph, and improvements in intelligence analysis by 
increasing our understanding of thought processes, learning, and 
decision-making in individuals and teams. Recently, NSF initiated a 5 
year research program in human and social dynamics. Emerging research 
and tools will provide a window into the human mind that will 
revolutionize the study of human development and cognition, as well as 
information processing and decision-making by groups and individuals. 
Areas critical to homeland security include agents of change, ranging 
from extremist ideologies to modern technology; the dynamics of human 
behavior; and decision-making and risk, which has special relevance to 
extreme events.
Fielding Advanced Capabilities
    In addition to the programs outlined above which directly support 
the OSTP-identified areas of vital Science and Technology for securing 
our homeland, NSF is supporting research at the frontiers for fielding 
advanced capability for future-generation needs. Some of this work is 
supported by the Foundation's SBIR/STTR program that, in accordance 
with the FY05 Interagency Research and Development Priorities announced 
by the Directors of OSTP and the Office of Management and Budget, 
created a cross-disciplinary program to address specific opportunities 
for developing Security Technologies. The SBIR/STTR Security 
Technologies subtopics were developed in collaboration with the DoD, 
DHS and the Intelligence Community. With this program, NSF only 
supports leading edge Security Technologies enabled by the convergence 
of two of the following three technologies: nanotechnology, 
biotechnology and information technology. The capabilities envisioned 
by the convergence of these technologies are considered to be among the 
most profound in human history and NSF believes that the advancements 
supported by this effort will lead to capabilities in the years and 
decades to come.
Conclusion
    Mr. Chairman, as you can see from the numerous examples above, the 
National Science Foundation is committed to the advancement of studies 
that have a direct impact on our Nation's homeland security. Our 
dedicated program staff understands the significance that science and 
engineering have on security and works to ensure that capabilities at 
the frontiers of science and engineering today will keep pace with the 
advances and threats of tomorrow. By supporting work that advances the 
Nation's health, prosperity and welfare, NSF is instrumental in 
influencing the future of scientific endeavor. NSF works in 
collaboration with DHS, the Intelligence Community, DoD, DOE, our 
federal labs and the private sector to ensure that this wealth of 
knowledge is effectively transferred into capabilities critical for 
advancement in many areas, including homeland security. The National 
Science Foundation will continue to participate in a multidisciplinary 
approach to the challenges faced by the engineering and scientific 
community in a way that will impact our country for generations to 
come.
    Mr. Chairman, thank you again for this opportunity to testify on a 
topic of great importance. I hope that I have conveyed the serious 
approach that NSF has taken to address these issues. I would be pleased 
to answer any questions you might have.

    Senator DeMint. Thank you.
    I'd like to invite Senator Nelson, our Ranking Member, to 
make a statement and to start the questions.

             STATEMENT OF HON. E. BENJAMIN NELSON, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Ben Nelson. Well, thank you very much, Mr. 
Chairman. I appreciate very much your scheduling this hearing, 
and I look forward to working with you this year on these 
critical issues of safety and welfare, and, in many cases, 
health, as well. And I appreciate the appearance of our 
witnesses today.
    The first hearing is not necessarily focused on natural 
disasters, but, whatever we talk about relates to either 
manmade disasters or natural disasters, because we're talking 
about preparedness, warnings; and a lot of the technology that 
is there can serve many different purposes. And I commend all 
of you for working, as best you can, to share and double-
function your technologies to do as much as you can possibly do 
to make us all safer, in only--in a way that only, I think, you 
can do that.
    Obviously, the ability to extend a warning about a 
bioterror attack to the public, and also warn them of a 
tornado--I have visited the National Weather Service, just 
outside of the city of Omaha, in Valley, Nebraska, just within 
the last couple of months to take a very close look at what 
capabilities they have. It strikes me, also, that, while you 
wouldn't consider an Amber Alert necessarily a weather-related 
item, because it's not, but the utilization of that kind of 
technology in similar situations can certainly benefit those 
who would have that great need, and would keep us all safer and 
more comfortable. So--and then if we develop lighter, stronger, 
and more blast-proof materials, I think they could also have 
another use, and that's perhaps to make our cars safer. You 
know, so protecting the security of computer networks not only 
foils cyberterrorists, it also stymies identity thieves that 
are there at work today.
    So, I'm concerned when I hear you say, Dr. Bement, that 
sometimes science and technology interests are falling off. I 
know that very often R&D funds are the first that are sliced, 
in tight economic times, when, in fact, they should be the last 
funds that are affected.
    So, I commend your agencies for using whatever limited 
resources you have to do as much as you possibly can for safety 
and security. I must say that I'm concerned about the decline 
in the number of science and engineering graduates. I must 
confess that perhaps I was one of those. I was president of my 
high-school science club, but I took a different route, as you 
can see. So, I don't know that I deprived our science and 
technology field of a great mind in that field, but, certainly, 
we do have to do what we can to build back for more scientific 
careers. We recognize that, and you can expect a commitment on 
my part, and, I'm sure the Committee's part, to try to help in 
any way that we can to rationally effect greater movement 
toward these science, engineering and technology careers.
    Thank you very much, Mr. Chairman.
    Senator DeMint. Thank you, Senator Nelson.
    A question from Senator Stevens that I'd like to pass 
along, Admiral, to you. In the past 2 years, Congress has 
appropriated a total of 20 million to develop a national alert 
system, including the distribution of NOAA Weather Radios to 
schools. How many radios have been distributed to schools so 
far? And do you have sufficient funding in the budget to 
complete the task?
    Admiral Lautenbacher. The radios have not been distributed 
yet. We're very close to doing that. The money was distributed 
to the Department of Homeland Security, so we've developed a 
memorandum of understanding, and have had to determine where we 
would distribute them. Right now, the plans are following, to 
start with two rural states, who happen to be Alaska and 
Mississippi, for Senator Stevens' edification, and then to the 
top 10 to 15 urban areas, high-security urban areas, as on 
our--as agreed to by the Department of Homeland Security on 
their list, starting with New York, Chicago and Washington. So, 
the plan is, within the next 6 months, to start working our way 
down the major cities, and then the rural states. And there is 
not sufficient funding yet to do the entire Nation, but this is 
a pretty good dent in that task, and we appreciate the fine 
support we've had in getting help for this project.
    Senator DeMint. It would be helpful if you kept the 
Committee informed as to how that progress went and----
    Admiral Lautenbacher. Yes, sir.
    Senator DeMint.--Senator Stevens is interested.
    Admiral Lautenbacher. I am interested. We will keep you up 
to date, sir.
    Senator DeMint. Let me ask you--I guess this could go to 
all three of our panelists--is there someone, or a group, at 
the Department of Homeland Security that has called you in? As 
I hear about the different expertise that you have here today, 
each expressing the different areas where there might be a 
threat in the country, I ask how you could bring your 
expertise, your equipment, your research to bear on that. Is 
there someone at Homeland Security that's called you in to 
collaborate on how to protect the country?
    Dr. Bement. Well, I can start.
    First of all, we have a seat on the Interagency Working 
Group in the National Science and Technology Council that deals 
with homeland security, and a lot of these questions get 
addressed in that working group. In addition to that, we are 
connected with the university program in the Department, and we 
have a number of joint activities with that function. And, as a 
matter of fact, just yesterday, as a result of reading my 
written testimony, a program director at Homeland Security 
asked to come and talk with us about a possible MOU in his area 
of expertise. So, this continues to bubble up. We thought we 
had all the connections made, but we're still finding more as 
we go along.
    Admiral Lautenbacher. Yes, I've found similar--we are in 
the beginning of ensuring effective intergovernmental 
coordination--agency coordination, in my opinion. We have set 
up--and we have had contact. We've worked with--the Deputy 
Secretary has come to talk to us, and we've talked to them. We 
have set up a NOAA office, or a NOAA desk, in the Homeland 
Security Operations Center, so NOAA is part of providing the 
kinds of environmental information that the President and the 
entire country needs for responding to any mishaps or terrorism 
that might occur. So, we're part of that.
    We have made contact and discussed mutual research and 
development with the Research and Development Directorate in 
that area. And we have worked for many, many years with the 
Coast Guard. Coast Guard, because of our issues with 
enforcement in the EEZ and fishing rules and regulations, have 
been--and our navigation responsibilities--have worked hand-in-
glove with the Coast Guard forever. So, that arrangement 
continues to go very strong.
    We have formed, together with a number of other agencies, 
under the Office of Federal Coordinator of Meteorology, who 
works in the Department of Commerce, to bring all the agencies 
together--an exhaustive inventory and development of plume and 
dispersion models that we are helping--what's now called the 
IMAC come up with the preferred models to use in various 
situations. So, we are connected with that part of emergency 
responses, as well. So--and we work, of course, with FEMA, 
because of the hurricane issues and responses to flooding and 
the types of things where you need to have local, quick, rapid 
response. FEMA is hand-in-glove with--have been hand-in-glove 
with our folks for many years.
    Dr. Semerjian. As I mentioned before, we do have an MOU 
signed with the Department of Homeland Security. As part of 
that agreement, we actually have several NIST staff members 
that are detailed to DHS to both help us coordinate our mutual 
work and help with the implementation of their mission. We also 
have seats at various NSDC committees on homeland--on national 
security, their committees on medical countermeasures, 
biodiagnostics, biological and chemical preparedness, regional 
security, infrastructure committees. These are all basically 
framework that help us coordinate our efforts, and NIST has 
participation in all of these committees and subcommittees to 
make sure that our efforts are coordinated.
    Senator DeMint. Let me ask a couple of, I guess, specific 
application-type questions.
    I know we're concerned about the Nation's water supply; 
what a terrorist could do to poison, or to somehow contaminate, 
our water supply. I know we have buoys and monitors that we use 
in the ocean. Have we looked at how to apply that technology to 
contaminants in water reservoirs across the country?
    Yes, sir?
    Dr. Bement. At the Foundation, we are supporting research 
in water remediation, as well as air and ground remediation, 
from various types of attacks, whether they're fissile 
materials or chemical or biomaterials.
    Senator DeMint. Are you talking about detection or 
remediation?
    Dr. Bement. I am talking about remediation, which I thought 
was the core of your question. Restoring potable water----
    Senator DeMint. No, my question was an alert that the water 
had been contaminated----
    Dr. Bement. Oh. Sorry.
    Senator DeMint.--through--I mean----
    Dr. Bement. Well, in that area, that would go more to our 
sensor arrays or----
    Senator DeMint. Right.
    Dr. Bement.--developing advanced sensors for that kind of 
detection and warning.
    Senator DeMint. Doctor?
    Dr. Semerjian. We're working with both CDC and FDA--and 
there is actually a federal-wide consortium, something called 
Integrated Consortium of Laboratory Networks and, actually, we 
have a formal MOU among basically all of the agencies that are 
involved in this--with the vision of U.S. Homeland Security 
infrastructure, with a coordinated and operational system of 
laboratory networks that provide timely, high-quality, and 
interpretable results for early detection and effective 
consequence management of acts of terrorism and other events 
requiring an integrated laboratory response. This is to make 
sure that we can immediately sample potential attacks at home, 
and make an immediate decision whether there has been an 
attack, and how, what the level of contamination is and what 
kind of mitigation strategies may have to be taken. So, this is 
to establish a nationwide network that involves, basically, 
many agencies' laboratory capabilities so that we can have 
access and immediate remediation activities to address the 
issues.
    Senator DeMint. Have we--in your meetings with Homeland 
Security--I'm just trying to determine how far we've gone. We 
know our water and food supply is threatened. And it sounds 
like there could be monitoring devices, detection devices, that 
might help us determine, at various points along the food chain 
or water reservoirs--that we could actually detect contaminants 
before they affected people. And I'm just wondering if we've 
taken our collaboration with Homeland Security far enough to 
actually challenge one of your agencies to develop a device 
that could do that.
    Dr. Semerjian. There are--I mean, the issues are different, 
of course, whether we're dealing with food contamination, food 
poisoning, contamination, or water-contamination issues. 
Indeed, DHS is looking at specific technologies to do this. The 
idea with this consortium was, once an attack, let's say, is 
detected, can we quantify that and--so that we can evaluate 
whether it's a major problem or a minor contamination issue, et 
cetera. But I don't think, at this point, there is a nationwide 
network of detectors, let's say, located in different places. 
But I think--my understanding is, DHS is considering such a 
plan.
    Senator DeMint. OK.
    Dr. Semerjian. But I'll be happy to provide you additional 
information on that.
    Senator DeMint. It would just seem that if--I mean, I can 
think of ventilation systems in buildings, food supplies, 
public schools, or grocery stores. If these things were somehow 
where we had folks, kind of, working to determine if current 
technologies could help us, with sensors and monitors, could we 
determine if we had a problem?
    Dr. Bement. Well, we--at the Foundation, we've been working 
with other agencies through our SBIR and STTR programs, which 
support small businesses, high-technology businesses, in 
developing new security technologies. And a lot of the work 
that is being done in this area is emerging from these small 
high-tech companies. And that's the way in which our Foundation 
would be making a contribution in this area. And a lot of that 
work does deal with sensors and detection and warning systems.
    Admiral Lautenbacher. May I add a couple of things?
    As I mentioned, this DCNet idea, which are local detectors, 
those detectors--and there's 11 or 12 of them in this--right in 
this city, one protecting this area--they can measure chemical 
incursions in the atmosphere. And they're working on 
biological, and there are some radiological sensors that could 
be added. So, that system has great promise for metropolitan 
areas in determining instant intrusion by some foreign 
substances into our air system. That system, if it were--we 
were looking at putting them in New York, as well. So, the 
technology exists for us to do that for our air monitoring. We 
also would like to add chemical detectors to our--some of our 
buoys along the coast, because that would allow us--in our 
harbors--because that would allow us to get a leg up on--and 
they have not been added yet, that I know of, not in any great 
numbers--but the technology exists to do that. We could work 
together to provide that kind of protection for water supply.
    Senator DeMint. Senator Nelson?
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Admiral you mentioned that you're working on getting the 
radios to Alaska and to Mississippi. What are your plans, and 
what are you looking for, in terms of funding, to get that 
program extended to other states--Nebraska, for example?
    [Laughter.]
    Admiral Lautenbacher. Yes, sir. We understand that, after 
this pilot program starts--and that's about a 500K program, is 
what I have right now--that those radios should be starting to 
arrive, as I mentioned, in September. In a few months, we'll 
have that in place. And DHS is prepared to add another 1\1/2\ 
million to that, with--you know, continuing the distribution. 
So, to that, we would add more states, more rural states and 
more cities, and keep on going. Obviously, I don't have a 
figure on top of my head, that it would take to do the entire 
country. I'd be happy to provide that.
    Senator Ben Nelson. Well, it might be helpful for us. 
Obviously, as we look at budgeting--not this year, but in the 
future--if we're short on the budget, you're not going to get 
the radios to the locations.
    Admiral Lautenbacher. Yes, sir.
    Senator Ben Nelson. And I--it was right after the tsunami 
that we had some hearings in which we found out that some of 
the sensor buoys that were locating earthquakes and identifying 
earthquakes, give us some advanced warning for tsunami 
activity, weren't functioning. Do you know whether that 
situation has been corrected?
    Admiral Lautenbacher. I believe the situation that you're 
referring to has been corrected. And let me specify, these were 
the new technology-six buoys. They're called DART buoys. They 
are, in my view, from my military days, they are Op/Eval buoys. 
They are first generation. Three of them were down, and they 
are all up now. They have all been repaired and put back 
online. The next set that we will put in the water will be 
second-generation technology. We believe they'll be much more 
reliable.
    I do want to point out that the ones that were not 
operational--there was a--there were three buoys in place that 
were monitoring the dangerous areas, the most dangerous parts 
of the Ring of Fire around the United States.
    Senator Ben Nelson. Well, as it turned out, we didn't have 
to test them more closely to our--closer to our shores or to 
the West Coast or anything of that sort, but I think Senator 
Stevens was more than slightly disturbed by that fact, as was--
--
    Admiral Lautenbacher. Yes, sir.
    Senator Ben Nelson.--Senator Inouye. So, I'm sure they'll 
both be relieved, as you are, too.
    Admiral Lautenbacher. I am very relieved that they're 
operational. And our intention is to put spares along the 
Alaskan islands.
    Senator Ben Nelson. I think a belt-and-suspenders approach 
would be excellent.
    [Laughter.]
    Admiral Lautenbacher. Yes, sir.
    Senator Ben Nelson. Dr. Semerjian, the World Trade Center 
report is coming out, I think--or is going to be reviewed by 
NIST to conclude what is your building and fire safety 
investigation of the collapse of the World Trade Center. And I 
wonder if you could tell us a little bit about where you are in 
that effort as it might relate to the way people design, 
construct, maintain, and use buildings, so that it would help 
increase the safety and security, but particularly structural 
integrity and safety for the future.
    Dr. Semerjian. Yes, thank you, Senator Nelson.
    We are scheduled to release our report on June 23, at a 
press conference in New York City, where the specific 
recommendations will come out, but we are already working with 
the organizations that will really implement the 
recommendations that come out of this study. These are the 
standards/codes organizations, organizations such as American 
Society for Civil Engineers, a number of other organizations. 
So--and that will be the first release of the report. That will 
be the beginning of a public comment period before the 
recommendations are finalized. But we actually already have a 
conference scheduled for September, where the findings of the 
report, and the recommendations, will be discussed, and the 
implementations with regard to standards and codes will be 
discussed--shared. I mean, this is clearly something that 
will--there will be, obviously, a lot of lessons learned, a lot 
of recommendations and implications for standards and codes. 
And we will be working with the community out there to make 
sure that the results are interpreted properly and that 
appropriate action is taken as a followup.
    Senator Ben Nelson. And is it your expectation, certainly 
without preempting the release later this month, that there 
will be a great deal of followership with recommendations 
that--from your discussions with interested groups, such as 
engineers, that there will be a lot of interest in complying?
    Dr. Semerjian. Yes. There has been--I mean, our process has 
been quite open. We have an advisory committee for our National 
Construction Safety Team Act. Our discussions are open, so, the 
community has been listening, following the discussions. They 
haven't seen the final recommendations, but, certainly, they 
have been privy to all the discussions. So, there has been 
quite a bit of information sharing, and our staff have been 
briefing various communities about our findings. And, all 
along, we have released our findings--not the recommendations, 
but the findings have been released, so the community is aware 
of what our findings are and what would be coming, in terms of 
recommendations. So, the community has been following the 
process, and I think they have been quite receptive to a lot of 
recommendations.
    Senator Ben Nelson. The report, will that make 
recommendations that are, not only related to new construction, 
but retrofitting current buildings so that those that are in 
existence right now can be made safer with adjustments and some 
design work?
    Dr. Semerjian. Yes, there are some recommendations that 
will impact existing buildings, also.
    Senator Ben Nelson. Thank you.
    One final thing. Is it Bement?
    Dr. Bement. Bement.
    Senator Ben Nelson. Bement. You know, we talked a little 
bit about research and development cutting back--being cut back 
with short funds, but I was a little concerned when I saw that 
the budget request for education and human resources in the 
budget included $104 million cut from FY05 to FY06, and that 
the request for math and science partnerships, which is off 24 
percent from 2005, and less than half of 2004. Now, you may 
have an explanation for that. And so, rather than my criticize 
you for that, perhaps I could just ask you to explain.
    Dr. Bement. Well, the math and science partnership program 
was also cut last year, as well. This is the second year. We 
have retained funds in that program to continue all ongoing 
efforts, so the mortgages are protected. The thing that has 
been disabled, essentially, is the startup of any new awards. 
So, we're protecting the existing programs.
    There has also been a concurrent scale-up of activity 
within the Department of Education, and they are also quite 
active in math and science partnership. And there has been, all 
along, a very close working relationship between the National 
Science Foundation and the Department of Education. In fact, 
that partnership is getting stronger with the new Secretary.
    So, we continue to work together to assure that the 
available resources are used as effectively as possible to 
support the overall program in math and science partnerships.
    Senator Ben Nelson. But would the actual reduction in your 
budget be picked up by an increase in their budget, or are we--
--
    Dr. Bement. I think it's pretty close to being equal.
    Senator Ben Nelson. So, you're not really looking at an 
overall cut for this kind of education that's so critical to 
the future.
    Dr. Bement. I believe that's correct.
    Senator Ben Nelson. Well, thank you, Mr. Chairman.
    Senator DeMint. Thank you, Senator Nelson.
    Let me go back to the National Weather Radio issue for a 
second, Admiral. It's clear that it's going to be years before 
we get these radios in all schools, and probably never, in any 
great penetration, into homes. Are we looking at other ways to 
get these messages out? For instance, I know it's very easy to 
program, on your computer, something that'll pop up. It would 
seem like it would be fairly easy to send out an alert via e-
mail, the Web, or--are we just looking at other ways to deliver 
this message, rather than actually have a radio onsite?
    Admiral Lautenbacher. Yes, we have. We, first of all, put 
out the warnings on a number of media, so they're not just 
going----
    Senator DeMint. Right.
    Admiral Lautenbacher.--to the radios. They're going to all 
of our radio and television stations, they're going to all of 
the emergency managers. So, the normal or, say, other means 
that we have for distributing this information are taken into 
account, so our--we have three or four redundant systems for 
transmitting this information, both nationally and 
internationally, for that matter.
    Some of the interesting things that are going on: if you 
happen to buy a Harley-Davidson now, you can get Weather Radio 
right in your cycle. So, manufacturers are bringing these 
things in as a permanent feature, or at least an alternative 
feature, that you can buy, either in car radios--we've been 
looking at OnStar, those kinds of things. RCA-Thomson has 
worked on a television model that'll be part of a standard 
package.
    So, to the extent that we can make it, as you say, part of 
other things--computers, televisions, radios--we are very big 
into working on that project.
    Senator DeMint. Senator Nelson, any other questions?
    Senator Ben Nelson. No. No, thank you.
    Senator DeMint. Any other comments for the Committee that 
you'd like us to make part of the record, any of the folks 
here?
    Yes, sir? Doctor?
    Dr. Bement. I'd like to go back to food security, just for 
a moment. There are sensor arrays that are being developed 
under grants of the National Science Foundation that will track 
biological attacks of agriculture. Furthermore, through our 
program in microbial genomics, we're studying microbes, the 
genome sequencing of microbes in order to understand how to 
develop countermeasures, for such toxic agents as wheat rust, 
soybean rust, rice blast, and even anthrax. So, this is a very 
important component of our ongoing program, not only to detect 
these types of attacks, but also to develop countermeasures 
against them.
    Senator DeMint. One more quick question for the National 
Science Foundation. I think you made some comments, as related 
to data mining, the ability to extract messages from large 
banks of information. Any other comments in that area? I know 
that's something that we hear a lot about from the intel 
community, looking for possible dangers or things that might 
tip us off. Are there things going on there that would 
encourage us?
    Dr. Bement. Well, we have a number of joint efforts with 
the intelligence community and also with the Department of 
Homeland Security, where they contribute funding into our 
ongoing efforts that will do pattern recognition, will 
understand anomalous incidences that occur in data patterns, to 
detect intrusive behavior that would jeopardize security, and 
also would do what we would call Internet epidemiology to deal 
with worms and viruses. And those capabilities become more 
robust with time, as we learn more about them and as we also 
try and develop more robust systems. So, those are some 
additional activities that are going on.
    Senator DeMint. Well, Senator McCain is back, and I think 
you had some questions for the panelists.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you very much, Mr. Chairman. And 
thank you for allowing me to ask a couple of questions.
    Admiral Lautenbacher, you're the guy that said we had to 
sleep for 20 or 30 years before we'd know anything about 
climate change. According to the General Accountability Office, 
Admiral, a report of April 14, 2005--have you seen it, 
concerning climate-change assessment? The Administration did 
not meet the reporting deadline?
    Admiral Lautenbacher. I've seen a few articles. I don't 
remember the one about the reporting deadline. I've seen a few 
recent articles on our--on the Administration's reports.
    Senator McCain. So, you don't really pay much attention to 
general Government Accountability Office reports that have 
direct--that you're the lead organization--with responsibility 
for it? I suggest you do, Admiral. So, since you haven't taken 
the time to read a Government Accountability Report that 
directly affects you, let me give you a couple of quotes.
    The Global Change Research Act of 1990 required the 
Administration to, among other things, prepare a national 
global-change research plan, a summary of the achievements and 
expenditures in the area of federal climate-change research. 
The scientific assessment is to be prepared at least every 4 
years. And it goes on as to what report.
    I'm sure you--I'd better read it to you, because I don't--
--
    Admiral Lautenbacher. I have read that one, sir. I didn't 
know which you were referring to.
    Senator McCain. Oh, OK.
    Admiral Lautenbacher. I have read that report. I understand 
what it says.
    Senator McCain. All right. Basically, they say you're not 
complying with the law.
    Admiral Lautenbacher. Yes, sir.
    Senator McCain. Are you complying with the law?
    Admiral Lautenbacher. I believe that we are complying with 
the law, yes, sir. We have answered----
    Senator McCain. So----
    Admiral Lautenbacher.--some of the----
    Senator McCain. Well, you're complying with the law. Did 
you submit a scientific assessment on November 2004, 4 years 
after the previous assessment, as required by the Act?
    Admiral Lautenbacher. We have been working on the pieces of 
it, and we believe----
    Senator McCain. Did you submit it, a scientific assessment, 
on November 2004, 4 years after the previous assessment, as 
required by the Act?
    Admiral Lautenbacher. No----
    Senator McCain. Yes----
    Admiral Lautenbacher.--sir----
    Senator McCain.--or no?
    Admiral Lautenbacher.--we did not.
    Senator McCain. You did not. But you're in compliance with 
the law. You know, you are really one of the more astonishing 
witnesses that I have--in the 19 years I've been a Member of 
this Committee, Admiral, because, clearly, you're in violation 
of the law when you didn't submit, on November, a scientific 
assessment, 4 years after the previous assessment, as required 
by the Act. I'd be glad to send you the language of the Act. 
Nor have you shown any inclination to do so. Reports are now 
expected to be completed up to a year later than planned, 
September 2006. The remaining 12 reports are currently expected 
to be completed by September 2007. Do you have any response to 
that, Admiral? Probably not.
    Admiral Lautenbacher. Yes, sir. We have--we have discussed 
it with your staff, we have discussed it with many Members. 
We're trying to look at the best way to do this. It took 10 
years to submit the first report. The limit was set at 4 years. 
This is a difficult requirement to meet on time, and I think 
we'll come in closer to it than the first report came in.
    Senator McCain. Did you ever notify this Committee that you 
would not be able to meet the requirements of the Act?
    Admiral Lautenbacher. I think we have. I'll go back and 
look at it. We certainly----
    Senator McCain. I don't think you have----
    Admiral Lautenbacher.--had discussions with staff----
    Senator McCain.--Admiral, and if----
    Admiral Lautenbacher.--members.
    Senator McCain.--If I was notifying the Committee of 
oversight, I might remember whether I did or not.
    Admiral Lautenbacher. We did talk with staff members about 
our ability to----
    Senator McCain. Did you----
    Admiral Lautenbacher.--do that, sir.
    Senator McCain.--notify this Committee that you were not 
going to be in compliance with the Act?
    Admiral Lautenbacher. I will go back and look at the 
memorandums that we----
    Senator McCain. We have no----
    Admiral Lautenbacher.--submitted for the record.
    Senator McCain.--record of it, Admiral.
    Well, Mr. Chairman, I don't mean to drag this out, but the 
General--Government Accountability Office says that Congress 
and other users will not know when or where eight areas will be 
addressed, according to the law. So, we have an agency of 
government here, responsibility for the oversight of an issue 
that many people, including Prime Minister Blair, think is the 
single-most--who is now visiting our President--single-most 
important issue affecting the world, climate change, and this 
witness in this agency doesn't care enough to even notify the 
Committee of oversight that they are unable to meet the 
statutory requirements of law.
    So, I have no choice, Admiral, but to try to act 
legislatively to try and see that you do obey the law. You 
know, that's, kind of, a fundamental around here. And so--and I 
don't know exactly what those courses of action will be, but, 
believe me, we will explore every one.
    And I, again, want to express my deep disappointment at 
your complete lack of concern about future generations of 
Americans who are affected by climate change, which 
overwhelming scientific evidence is now--let me just--because 
I'm sure you probably didn't read it--``The National Academy of 
Sciences, along with the national academies of ten other 
nations, issued a joint statement on the global response to 
climate change. The scientific understanding of climate change 
is now sufficiently clear to justify nations taking prompt 
action. It's vital that all nations identify cost-effective 
steps that they can take now to contribute to substantial and 
long-term reduction in net global greenhouse-gas emissions.''
    And all we're asking from you is a report, and we can't 
even get that.
    Thank you, Mr. Chairman.
    Senator DeMint. Thank you, Senator McCain, and I want to 
thank all the panelists. Great information today, and we'll be 
following up. And some of the things that were mentioned that 
you were going to keep us in the loop on, I greatly appreciate.
    Thank you.
    [Whereupon, at 3:35 p.m., the hearing was adjourned.]

                            A P P E N D I X

    Prepared Statement of Daniel K. Inouye, U.S. Senator from Hawaii
    Mr. Chairman, thank you for holding this hearing today to examine 
the science occurring throughout our federal agencies that can help 
improve our homeland security.
    I firmly believe that research and development at the various 
agencies within our jurisdiction such as the Coast Guard, the 
Transportation Security Agency, the Department of Transportation, the 
National Aeronautics and Space Administration, and of course the three 
agencies that we will discuss today, have much to contribute in keeping 
the Nation safe.
    Today's hearing will examine the hard science and operational 
assets of three of our science agencies, the National Oceanic and 
Atmospheric Administration (NOAA), the National Institute of Standards 
and Technology (NIST), and the National Science Foundation (NSF) that 
are improving homeland security.
    I would like to thank these agencies for their work. NOAA is 
leveraging its assets from NOAA weather radio to modeling to 
environmental monitoring to help our ability to prevent and respond to 
terrorism.
    NIST has become a resource for first responders, builders, and the 
Department of Homeland Security when it comes to improving technology.
    The NSF is funding the basic research that may not come to fruition 
for ten to fifteen years but which could fundamentally change our 
understanding of the human dynamics of terrorism, the ability of 
computer networks to protect themselves, or the ability for sensors to 
detect multiple threats.
    Unfortunately, these agencies that contribute so much are asked to 
do so with little recognition and tight fiscal resources. I hope that 
today's ``good news'' hearing can help us build the case for NOAA, 
NIST, and NSF and support these agencies' broad and important work

                                  <all>

</pre></body></html>
